<html>
<title> - [H.A.S.C. No. 113-15]THE POSTURE OF THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS COMMAND, AND U.S. TRANSPORTATION COMMAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 113-15]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

 
                           THE POSTURE OF THE 
                         U.S. CENTRAL COMMAND, 
                    U.S. SPECIAL OPERATIONS COMMAND, 
                    AND U.S. TRANSPORTATION COMMAND

                               __________

                              HEARING HELD

                             MARCH 6, 2013

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
79-856                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, March 6, 2013, The Posture of the U.S. Central 
  Command, U.S. Special Operations Command, and U.S. 
  Transportation Command.........................................     1

Appendix:

Wednesday, March 6, 2013.........................................    39
                              ----------                              

                        WEDNESDAY, MARCH 6, 2013
   THE POSTURE OF THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS 
                COMMAND, AND U.S. TRANSPORTATION COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Fraser, Gen William M., III, USAF, Commander, U.S. Transportation 
  Command........................................................     6
Mattis, Gen James N., USMC, Commander, U.S. Central Command......     3
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     5

                                APPENDIX

Prepared Statements:

    Fraser, Gen William M., III..................................    94
    Mattis, Gen James N..........................................    47
    McKeon, Hon. Howard P. ``Buck''..............................    43
    McRaven, ADM William H.......................................    77
    Smith, Hon. Adam.............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   123
    Mr. Scott....................................................   123

Questions Submitted by Members Post Hearing:

    Mr. Andrews..................................................   133
    Mr. Bridenstine..............................................   145
    Mr. Langevin.................................................   133
    Mr. LoBiondo.................................................   133
    Mr. McKeon...................................................   127
    Mr. Palazzo..................................................   142
    Mr. Runyan...................................................   139
    Ms. Shea-Porter..............................................   136
    Mr. Shuster..................................................   135
    Mr. Turner...................................................   134
   THE POSTURE OF THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS 
                COMMAND, AND U.S. TRANSPORTATION COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 6, 2013.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Good morning, 
ladies and gentlemen. The House Armed Services Committee meets 
to receive testimony on the posture of U.S. Central, Special 
Ops, and Transportation Commands. Today we have with us General 
James Mattis, Admiral William McRaven, General William Fraser. 
Thank you, gentlemen, for joining us here today.
    General Mattis, this is your last time. What a wonderful 
opportunity to say whatever you want.
    The CENTCOM [Central Command] area of responsibility 
remains a critical focus of the U.S. military. Over the next 
year in Afghanistan, the United States will be withdrawing 
34,000 troops, and the ANSF [Afghan National Security Forces] 
will be fully in the lead across Afghanistan for the first 
time. These major changes to the security context in 
Afghanistan, all of which will be occurring during the same 
time period, could present new forms of risk to U.S. interests 
in Afghanistan and in the region.
    Likewise, the broader challenges within the CENTCOM area of 
responsibility, including the conflict in Syria, the nuclear 
ambitions of Iran, and the uncertain political transition in 
Egypt, continue to pose strategic risks to U.S. interests. 
However, in my view, among the greatest strategic risks within 
the Middle East remains the ongoing ambiguity associated with 
U.S. commitment to our regional allies and the region itself.
    Additionally, I remain concerned about the threats posed by 
transnational terrorism. The threat from Al Qaeda is real; it 
is global, networked, and clandestine. U.S. Special Operations 
Command and our Special Operations Forces play a critical role 
in counterterrorism, unconventional warfare, and countering 
weapons of mass destruction.
    SOCOM [Special Operations Command] has achieved 
extraordinary integration with each of the Services, the U.S. 
Interagency, and our international partners. However, an 
emphasis on direct action during the last 11 years of combat 
may have left our Special Operations Forces out of balance for 
a future that will increasingly require building partnership 
capacity and advisory and assistance efforts.
    Looking forward, our Special Operations Forces must remain 
flexible enough to counter the transnational terrorist threat 
with decisive force when warranted, but at the same time 
globally postured to prevent transnational terrorism from 
manifesting into operational and strategic threats, through 
international partnerships and regional alliances.
    Finally, TRANSCOM [Transportation Command] continues to 
execute the logistical requirements for ongoing U.S. military 
efforts across the globe. The challenges that TRANSCOM faces 
continue to grow. As our military prepares to redeploy from 
Afghanistan, and as we rebalance to the Asia-Pacific, we must 
remain ready to respond to contingencies elsewhere in the 
Middle East and Africa. These operational necessities come as 
the military is being forced to shed force structure, curtail 
flying hours, and return ships to port, reducing the 
availability of the very lift capacity upon which TRANSCOM 
relies. This committee has taken steps to mitigate these 
shortfalls, but much remains to be done.
    In short, CENTCOM, SOCOM, and TRANSCOM are executing vital 
military missions across the globe. We are extremely grateful 
for your service to our country, and we look forward to your 
testimony.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]
    The Chairman. Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I welcome our witnesses 
as well, General Mattis, Admiral McRaven, General Fraser. We 
thank you for your service and your great leadership in your 
three very important commands. It is appropriate that we have 
the three of you together because you have to work very, very 
closely together.
    As the chairman mentioned, CENTCOM continues to be our most 
important command facing the greatest challenges, number one, 
of course, being Afghanistan, where we still have troops in 
battle. And the transition over the course of the next couple 
of years is going to be critical. Look forward to hearing more 
from General Mattis, from all three of you, actually, about how 
that transition will go.
    But there are other threats in the CENTCOM region. 
Obviously, the instability in the Middle East remains, and the 
threat from Iran is also something that will continue to be a 
challenge, and we are curious any thoughts you have on how to 
contain that and what come out of the Syrian civil war as well.
    Admiral McRaven, we greatly appreciate everything the 
Special Operations Command has done. And, obviously, we are 
very aware of the work that has been done in Iraq and 
Afghanistan over the course of the last decade. Less well known 
is your presence in many other places trying to contain 
insurgencies, in many cases before they start.
    The relatively small footprint that you offer yields a huge 
return in a number of places to great success. In the 
Philippines, helping contain insurgencies there; our work with 
AMISOM [African Union Mission in Somalia] in the Somalia area, 
working with partners in Ethiopia, Kenya, and Uganda, and 
Burundi, as well, has proven that a small-force, building-
partner capacity working with the local population can make an 
enormous difference for a very small cost. Of course, you also 
have to include diplomacy and development pieces to make that 
work, but I think the partnerships that have been formed there 
have been incredibly valuable.
    Now, going forward, certainly, as the chairman mentioned, 
as we are drawing down in Afghanistan, as we have drawn down in 
Iraq, how do we reposition SOF [Special Operations Forces] to 
best meet the threat environment that is out there?
    And, General Fraser, the Transportation Command is 
absolutely critical. It is all about logistics. It is the part 
of fighting a battle and preparing for battle that most people 
don't know that much about, but it just doesn't happen if we 
don't get the troops and the equipment to where they need to 
go. It is a very complicated process. You do an excellent job; 
certainly have been, you know, very, very helpful in 
Afghanistan. And the challenge now as we transition out is you 
are the guy who has got to get all that stuff out of there in a 
logical way. So we are anxious to hear about that.
    Of course, overall, as the chairman mentioned up front, you 
all face, you know, budget challenges. You know, we had fairly 
substantial cuts in what we were expected to spend starting 
2011. Now we have sequestration kicking into to roughly double 
those cuts and to do so in a very unhelpful way, across the 
board, mindlessly, in a way that makes it very difficult to 
plan. In addition, we have the challenge of operating under a 
CR [Continuing Resolution] instead of with an appropriations 
bill. All of those things are going to make it that much more 
difficult to get the job done. We are anxious to hear about how 
you are meeting those challenges and what, hopefully, we can do 
to reduce them.
    So I thank the chairman. Look forward to your testimony. 
Appreciate your being here, and appreciate your great service 
for to our country.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    Gentlemen, your full statements that you have given to us 
will be included in the record. Without objection, so ordered.
    General Mattis.

STATEMENT OF GEN JAMES N. MATTIS, USMC, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Mattis. Mr. Chairman, Ranking Member Smith, members 
of the committee, thank you for the opportunity to testify. It 
is my privilege to appear alongside a stalwart shipmate, a true 
friend, and a comrade in arms, Admiral Bill McRaven, and our 
tremendously supportive TRANSCOM Commander, General Will 
Fraser, whose outstanding team provides 100 percent of our 
critical strategic mobility and does so superbly.
    In the Middle East, we confront what is a significant risk 
to our interests in the region: a perceived lack of an enduring 
U.S. commitment. To counter this misperception, we must clearly 
communicate our intent and demonstrate our support through 
tangible actions.
    In Afghanistan, we are conducting a steady and deliberate 
transition. U.S. leadership among 50 nations fighting together 
in the largest wartime coalition in modern history provides 
continued support of the Afghan Security Forces to set 
conditions for their long-term success.
    Iran remains the single most significant regional threat to 
stability and prosperity in the region. Reckless behavior and 
bellicose rhetoric characterize a leadership that cannot win 
the affection of its own people or the respect of any 
responsible nation in the region.
    Iran's continued support to the murderous Assad regime in 
Syria, coupled with its maligned activities in Iraq, 
Afghanistan, Lebanon, Bahrain, Yemen, and Gaza, and globally in 
Sudan, Turkey, Azerbaijan, Thailand, India, Georgia, Bulgaria, 
Nigeria, and even here in Washington, D.C., in the attempt to 
kill the Saudi Ambassador, and elsewhere, as well as in the 
cyber domain raise the risk of Iranian miscalculation that 
could spark a disastrous conflict.
    As we address the very real challenges we collectively 
face, I am confident U.S. Central Command will continue working 
by, with, and through our regional partners to ensure a measure 
of stability in the region.
    Our military-to-military engagements, security cooperation 
efforts, exercise programs, and information operations will 
continue to need your support, including innovative and 
flexible authorities and the necessary funds so we can continue 
doing what is required to protect U.S. national security 
interests.
    As our Nation confronts a period of fiscal austerity, our 
ability to adapt our ways and means to continue to meet our 
operational objectives would be enhanced with three key 
factors. One is budget certainty; a second is time so we can 
adapt our changed budget levels, and we can execute them 
smartly; and third is the flexibility to determine where to 
shift available funds in a manner that reduces risk and is 
consistent with the intent of Congress.
    With your support, and with the continued devotion to duty 
of our troops, and the commitment of our military families, we 
will stand by our friends and maintain a measure of regional 
stability in defense of our values and our interests.
    I look forward to answering your questions, Chairman. Thank 
you.
    [The prepared statement of General Mattis can be found in 
the Appendix on page 47.]
    The Chairman. Thank you, General.
    Admiral.

   STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Good morning. Mr. Chairman, Ranking Member 
Smith, distinguished members of the committee, I appreciate the 
opportunity to address the committee today and talk about the 
magnificent work being accomplished around the globe by the men 
and women of the U.S. Special Operations Command.
    It is always good to be joined by my friend Will Fraser, 
and I am particularly pleased to be joining Jim Mattis in his 
last testimony before he retires later this month after 41 
years of service to this great Nation.
    I have known Jim Mattis for many years, and everyone who 
has ever served with him by his side feels honored and 
privileged to have done so, and I count myself in that group. 
Jim Mattis has been particularly supportive of the men and 
women of the U.S. Special Operations Command. And, Jim, on 
behalf of all those great warriors and Americans everywhere, I 
want to thank you for your incredible leadership, for all your 
personal sacrifice, and for your unmatched sense of duty, 
honor, and country. Good luck in retirement, Jim.
    Mr. Chairman, this is my second opportunity to address this 
committee since I took command in the summer of 2011. Since 
that time I am proud to say that we have continued the great 
work initiated by my predecessor, Admiral Eric Olson. At the 
same time we have adapted to the changing strategic and fiscal 
environment to keep SOF relevant now and in the future. In 
Afghanistan, we established a new Special Operations command 
structure, which brought the various NATO [North Atlantic 
Treaty Organization] and U.S. SOF elements into alignment under 
a two-star headquarters. This has allowed us to have a common 
view of the enemy, and has also helped synchronize our Special 
Operations Forces to achieve a common end state. It has made 
SOF even more effective than ever before.
    Partnered with our Afghan Special Operations Forces, we 
have continued to attrit the enemy leadership, while at the 
same time building and training Afghan Security Forces so they 
can stand on their own against this determined threat.
    In addition to our work in Afghanistan, SOF is in 
approximately 78 countries around the world helping to build 
partner capacity so that the host nation can deal with their 
own security problems. In the 2012 Defense Strategic Guidance, 
then-Secretary Panetta wrote, ``We are shaping a joint force 
for the future that will be smaller and leaner, but will be 
agile, flexible, ready, and technologically advanced. It will 
be led by the highest-quality battle-tested professionals. It 
will have a global presence, strengthening alliances and 
partnerships across the regions.''
    I firmly believe that the Secretary's words speak to the 
core capabilities of SOF, and therefore SOCOM is working with 
the Joint Chiefs and OSD [Office of the Secretary of Defense] 
to ensure we are postured now and into the future to meet the 
objectives of this strategy.
    Finally, I have made caring for our force and families my 
top priority. In the past year my command sergeant major and I 
have met with the soldiers and their families from around the 
SOCOM enterprise. We have listened to their concerns and, with 
the support of the Services, we are aggressively implementing 
programs and plans to help with the physical, mental, and 
spiritual well-being of the force. We have a professional and 
moral obligation to take care of our warriors and their 
families, and we greatly appreciate the support of your 
committee and other Members on the Hill in our efforts to take 
care of these men and women.
    Thank you again, sir, for your commitment to the soldiers, 
sailors, airmen, marines, and civilians of the Department of 
Defense, and specifically to those great warriors who make up 
the Special Operations Command. I look forward to your 
questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 77.]
    The Chairman. Thank you.
    General Fraser.

 STATEMENT OF GEN WILLIAM M. FRASER III, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Fraser. Chairman McKeon, Ranking Member Smith, and 
distinguished members of this committee, it is indeed an honor 
and a privilege to be with you here today representing the men 
and women of United States Transportation Command.
    Our total force team of over 150,000 men and women, 
military and civilian, are dedicated. They are proven to be 
reliable every single day. They offer seamless logistical 
support to our warfighters and their families all around the 
entire globe. I am proud to report to you before you today that 
I am honored to be with you, but also representing them as they 
have met the mission every single day.
    I would also like to say that I am proud to be here with 
two of my teammates, Admiral McRaven and General Mattis.
    General Mattis, I want to take this opportunity on behalf 
of all the men and women in the United States Transportation 
Command to also offer my thanks, our thanks, for the many years 
of service that you have provided our Nation, for your personal 
sacrifices. We thank you for your leadership, but I personally 
want to thank you for your friendship for the many years that I 
have known you, and I want to wish you all the best in 
retirement. Thank you very much, sir.
    You know, our Active Duty members, National Guard, 
Reserves, civil servants, merchant mariners, commercial 
partners have met the challenges of the past year while 
maintaining a high operations tempo supporting combat 
operations, sustainment efforts, humanitarian relief, and 
crisis action responses. These efforts, from supporting folks 
who were in need after Superstorm Sandy to developing 
innovative ways to maximize our throughput into and out of 
Afghanistan, to meeting the directed 68,000 troop reduction 
level by the 30th of September 2012, were made possible by the 
United States TRANSCOM team of dedicated professionals 
committed to ensuring our joint force maintains global logistic 
superiority.
    Our Component and Subordinate Command Team, comprised of 
Air Mobility Command, led by General Paul Selva; Military 
Sealift Command, led by Rear Admiral Mark Buzby; Surface 
Deployment Distribution Command, led by Major General Tom 
Richardson; the Joint Naval and Capabilities Command, led by 
Rear Admiral Scott Stearney; and the Joint Transportation 
Reserve Unit, led by Major General Dave Post, continued their 
flawless execution of our command's mission. I have had the 
opportunity to observe firsthand during my travels throughout 
Europe, Central Asia, and the Pacific and all around the globe 
the support these world-class professionals provide and can 
tell you they are doing the Nation's business magnificently, 
without fanfare, and often under stressful conditions. I could 
not be prouder of this total team.
    As we continue to sustain our forces abroad, we also are 
working towards our goal of becoming the Government's 
transportation and enabling capabilities provider of choice. To 
meet that goal we embarked on a comprehensive and collaborative 
5-year strategic plan, which will tackle the challenges. It 
will also take advantage of the opportunities for continuing to 
project national power and influence. This strategic plan 
positions us to respond effectively and efficiently to our 
rapidly changing operating environment, while accounting for 
the dynamic fiscal environment which we now face. We continue 
to work with our customers and the lift providers to pursue 
smart transportation solutions to reduce the costs of 
operations.
    Strategic guidance requires a military that is smaller and 
leaner, while at the same time we must continue to be agile, 
flexible, and ready. As the global distribution synchronizer 
and distribution process owner, USTRANSCOM is committed to 
working with the military services, our component commands, 
other governmental agencies, allies and commercial partners to 
synchronize distribution planning and synchronize distribution 
initiatives. This collaborative effort will ensure we deliver 
scalable and resilient global distribution network from the 
point of origin to the point of employment. We will meet the 
needs of the operating environment.
    As we look towards the future, we are also assessing the 
mission impact of funding reductions for this year and 
potentially beyond. Since USTRANSCOM requirements are driven by 
our customer workload and readiness needs, as their demand 
signals decline, so will our workload. While the impacts of 
these reductions will not occur immediately, long-term results 
will likely affect the business base of our commercial partners 
and, therefore, our ability to support other combatant commands 
in the same manner as we do today.
    In the coming months we will continue to work closely with 
the military services, our commercial partners to mitigate 
second- and third-order effects of these reductions on our 
sealift, on our airlift, and surface capabilities, and we will 
keep you informed of our progress. Preserving our readiness 
remains critical to maintaining our capability to project power 
and provide support to our joint forces around the world.
    Chairman, Ranking Member Smith, all the members of this 
committee, I, too, want to thank you for your continued support 
of USTRANSCOM and all of our men and women, military and 
civilian. I look forward to your questions. Thank you.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 94.]
    The Chairman. Thank you very much.
    General Mattis, I said in my opening statement that I 
remain concerned that the ambiguity associated with our U.S. 
commitment to CENTCOM region is one the greatest strategic 
risks to U.S. interests, if not the greatest. You also touched 
on this issue in your posture statement. Could you provide 
specific examples in which the changing, ambiguous, or lacking 
commitments from the United States within the CENTCOM area of 
responsibility are putting U.S. interests as risk?
    General Mattis. Chairman, the drawdown of our forces can be 
misinterpreted as a lack of attention, a lack of commitment to 
the region. Obviously that is a misinterpretation of what we 
are doing. Those forces were sent there for missions that are 
going away. But what we have to do through exercises, through 
our mil-to-mil contacts by having their officers attend our 
schools is show an unwavering interest in this critical part of 
the world.
    I would also add, sir, that the budget ambiguity right now 
is probably the single greatest factor. I am asked about it 
everywhere I go in the region, by the regional leaders to 
national leaders there. And I think we are at a point that 
Senator Kaine made yesterday in the hearing in front of the 
SASC [Senate Armed Services Committee] where he stated that 
budget ambiguity is now starting to drive our strategy.
    And so what we could use most is some degree of budget 
predictability, like any household or business in America needs 
to run an operation. We need some time to make those cuts 
right. And we need a certain amount of flexibility for the 
Chief of Staff of the Army, Chief of Staff of the Air Force, 
Commandant of the Marine Corps, Chief of Naval Operations, 
Commandant of the Coast Guard so that they can take the cuts in 
a way that has the least risk associated with it. Combined with 
that and a continuing straight message that we are committed, I 
think we can weather this current situation, and reassure our 
friends, and make certain none of our adversaries think this is 
an opportunity.
    The Chairman. I am hopeful that today we will pass with a 
good vote the CR, which contains also the appropriations bill 
for the DOD [Department of Defense].
    That would give certainty, at least for the next 6 months, 
to the Department, which I think is very crucial at this time. 
So hopefully we can get that done. In fact, I understand we are 
going to have a vote within an hour on the rule as they try to 
expedite this process.
    General, you are retiring at the end of this month. The 
Nation owes you a great debt of gratitude for your 41 years of 
service, and this has been iterated by your colleagues there 
next to you. We understand that we owe that debt, and thank 
you. Thank you very much for all you have done to help the 
Marine Corps, and this Nation, and the people that have served 
with you and under you during this time.
    Reflecting back on your tenure as CENTCOM Commander, if you 
were giving advice to a future commander, what are the key 
policy decisions you believe the United States must make in 
order to ensure our warfighters can conduct robust planning to 
respond to contingencies in the Middle East?
    General Mattis. Chairman, I think the most important point 
is that we keep open communications with our regional partners, 
our allies out there. And they want to carry their share of the 
burden in many cases, they are eager to do so, and by good 
intelligence sharing, by good cross-component training with our 
various components and their components, we can put ourselves 
in a position where we are not carrying this entire burden 
ourselves. And I think that is critical right now, and it means 
we are going to have to look afresh at a region that is going 
through change, and we are going to have to make certain we are 
open to the opportunities that are presented to us as well as 
recognizing the very real challenges that are coming with the 
turmoil there.
    I think, too, the recognition that Iran's role is extremely 
unhelpful is simply part of dealing with reality. I know there 
are some very good efforts under way with diplomatic 
initiatives and economic sanctions, and I completely support 
those. At the same time we have to recognize that so far they 
have not backed off on enriching plutonium beyond any plausible 
peaceful purpose. And that is a reality, too, that I think we 
see with the P5-plus-1 negotiations, the European Union 
position. I think there is a broadening international 
commitment to stopping what is going on there, and we should do 
everything possible to reinforce the current policies of our 
President and of the international organizations that are 
trying to stop this.
    Part of this, frankly, we are going to have to recognize 
Iran's legitimate security interests so we can preclude them 
going for illegitimate means as a way to protect themselves. So 
it is going to be a balancing act, and I think we are on the 
right track right now, but so far we are not having the 
traction we need to throw the nuclear program into neutral. It 
is still progressing, sir.
    The Chairman. Thanks very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I want to first echo 
the comments in thanking General Mattis for his service and 
congratulating him on his impending retirement. I understand 
you are planning on retiring back to the State of Washington. 
So we welcome you back, and thank you very much for your great 
service. And, personally, it has been great to work with you 
during my time on this committee and your time in command. You 
have always been very open and very helpful in keeping me 
informed and doing, you know, a great job for all of us. So I 
very much appreciate that.
    On the spending, I just want to make a quick editorial 
comment, then I just have one question. Certainly we do need an 
appropriations bill, but, you know, I realize we have reached 
the point where the sequestration numbers have simply been 
accepted, it seems. I don't think that is acceptable, it is not 
the number we should be at, and I think as a Congress we should 
not forget that we still have a very strong obligation to 
address revenue and to address mandatory spending. And our 
complete inability to address those two issues is placing an 
enormous amount of pressure on the discretionary budget.
    I care about aspects of the discretionary budget that 
aren't just defense, so certainly they should be noted. But 
here in the Armed Services Committee, we should take a look and 
then listen to the generals that we have all been talking to 
about the decisions that are having to be made because we 
cannot address taxes and mandatory spending. It all falls on 
the discretionary budget and is doing great damage, I think, to 
this country. So I hope that wherever we are now, however 
stalemated it appears, there is a commitment at least on this 
committee to keep looking for ways to get above those 
sequestration numbers, and the sooner the better.
    The only question I have, I have had the opportunity to 
speak with all three of you gentlemen before the hearing, and 
there is something I wanted to ask Admiral McRaven about. It is 
an obscure issue, but the Leahy amendment and how it impacts 
your job.
    This amendment was passed a couple years ago that places 
restrictions on our ability to do train-and-equip missions with 
certain nations if they don't meet certain human rights levels. 
And at first blush, you know, that makes perfect sense. You 
know, that is where we want to get those countries to. We want 
to make sure that their security forces are respecting human 
rights. In fact, I know, Admiral McRaven, you would tell us 
that is one of the first things you do. I was very impressed, 
for instance, in the Philippines that that is--you know, since 
it is an internal issue, training the security forces on how to 
work with and respect the local populations is a cornerstone of 
what you do.
    The irony of the Leahy amendment is it forces you out at a 
time when perhaps you are needed most, when there isn't respect 
for human rights amongst the security forces. Certainly this 
was a difficulty in Mali, when you weren't allowed to, you 
know, train as much as you would have liked because of those 
continuing concerns.
    I support the human rights concerns. I just think that 
SOCOM being able to go in and do train-and-equip missions is a 
way to improve human rights, and I am wondering if you could 
just talk a little bit more about that.
    Admiral McRaven. Sir, thank you. And I think you hit the 
nail on the head here. We absolutely want to ensure that the 
forces we are working with understand and appreciate their 
requirement to maintain appropriate human rights. We go in and 
we try to teach them what we think ``right'' looks like in 
terms of everything militarily, from good order and discipline, 
to civilian rule in the military, to human rights.
    So when we have a circumstance where you have an 
individual, for example, that is in the unit, we have now what 
is called a policy of ``poison person, poison unit.'' So if the 
individual has committed a human rights violation, then by 
default we have to go back and relook the entire unit, 
potentially step away from that unit at a time when, frankly, 
as you said, we are kind of getting forced out at a time when 
we probably need to engage them more than ever before.
    And I want to make absolutely clear, Congressman, we are 
all about making sure that there are appropriate human rights 
vetting, and that we are doing this according to the law and 
the policy. Unfortunately it has restricted us in a number of 
countries across the globe in our ability to train units that 
we think need to be trained, that the U.S. Ambassador in many 
cases thinks need to be trained, that the host nation thinks 
needs to be trained, and yet because of some of the 
restrictions of the Leahy amendment, we are prohibited from 
doing that.
    Mr. Smith. Thank you. That is something I think this 
committee should look at during the authorization process.
    That is all I have. I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. And I, too, would 
prefer that we not have military funded at the lower 
sequestration level. On the other hand I know that we have an 
opportunity before us in just an hour or two to alleviate some 
of the damage that comes from having a CR and a sequestration 
together. And I hope that, like the chairman, we can have a 
strong vote to make sure that happens, because I am afraid we 
have a narrow window to get a defense appropriation bill done, 
and then we will end up with the worst of both.
    Thank you all for being here. I appreciate very much your 
service. And if I may make a brief editorial comment, it seems 
to me essential to our country's security to have those who 
serve us in the Armed Forces to be able to and to be encouraged 
to offer their best professional military advice on the key 
issues we face even if it makes political leaders 
uncomfortable. I think that is a form of courage that is just 
as valuable to the country and just as admirable as the 
physical sort of courage that we all admire in those who serve.
    And I just say, General Mattis, in addition to your 
intellect and other qualities, that courage that you have 
displayed throughout your career and integrity is one of the 
reasons you are so admired on this side of the table as well as 
with your colleagues there.
    Moving to the weeds for just a second, General Mattis, we 
had a hearing a week or two ago on building partnership 
capacity; looking at the different authorities and whether 
there are improvements, adjustments, modifications, updates 
that can or should be made to the range of authorities we have 
to help other security forces.
    Given your experience and area of responsibility, I would 
be interested in any comments you have on that topic, 
suggestions you may have, especially looking forward. And then 
I would appreciate it if Admiral McRaven could make a comment 
on that as well.
    General Mattis. Thank you, sir.
    I won't reiterate what Admiral McRaven already said about 
Leahy, but that is at times stopping us perhaps more broadly 
than was the congressional intent, where one person does 
something, and now we have a large unit that is tainted and we 
are unable to work with.
    The other point I would make is, sir, that many of the 
organizations that conduct border security or paramilitary 
activities against terrorists in particular are in the Ministry 
of Interior Forces. And if we could get some flexibility that 
if an ambassador says, this organization in the Ministry of 
Interior is working in a de facto military realm and could use 
U.S. military guidance, support, training, we need the 
authority, I think, to also work with them.
    Sometimes we have this arbitrary line drawn originally for 
a very good purpose, but probably because other organizations 
do not organize the same way, other nations don't organize the 
same way we do, we get somewhat circumscribed in what we can 
do. That would be the one that leaps out at me.
    I actually have the authority to do training both here at 
home, if they want to come to Nellis Air Force base or to Fort 
Irwin. I have got the authority to do training with them 
overseas. I am in pretty good shape on the authorities right 
now, sir, absent those two points.
    Mr. Thornberry. Admiral.
    Admiral McRaven. Yes, sir. Thank you.
    In terms of Special Operations Forces and how we train and 
build partner capacity, as was mentioned in the opening 
comments by the chairman and the ranking member, our direction 
here as we push towards a vision for SOF 2020 really is a lot 
about building partner capacity. We have a number of 
authorities out there that enable us to do that. We have 1206 
authorities, 1208. We have our Joint Capabilities NECC [Navy 
Expeditionary Combat Command] Sizes and Training program, our 
JSET [Joint Systems Engineering Team] program.
    Unfortunately, all of those have their limitations. Most of 
them are 1-year money authorities. So as you begin to build a 
partner's capacity, you really want to be able to come in and 
say, look, we have got a 5-year plan or a 10-year plan, because 
it takes time to build capacity if you want to do it right.
    It was mentioned earlier about Colombia. We have had 
tremendous success in Colombia as we began really around 2002 
in helping the Colombians deal with the FARC [Revolutionary 
Armed Forces of Colombia]. Same thing in the Philippines, where 
we have great success in working with our Filipino 
counterparts. But in both of those cases, which have had 
dramatic effects on the end of it, it has taken us almost 10 
years to get there.
    So we are looking for an authority that is not just 1 year, 
so that we can sit down and actually develop a plan that allows 
us to have multiyear funding, that allows us in the Special 
Operations community to be able to deal not only with the 
Minister of Defense, but in many cases with the Minister of the 
Interior, because many of their counterterrorism forces rest in 
the Interior vice Defense. We are looking for some minor MILCON 
[military construction] so that we can build small shoot houses 
and maybe a small barracks complex, things like that that we 
think will give us some ability to again build the capacity 
with a longer-range plane rather than how we are having to do 
it now, which is year by year.
    Mr. Thornberry. Thank you.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Well, General Mattis, congratulations on your career. And 
like Mr. Smith said, I look forward to having you back in 
Washington State.
    First question as well is for you and has to do with 
Afghanistan itself and the idea of the commitment the U.S. has 
to Afghanistan. But it just seems that short of a long-term, 
very heavy presence in Afghanistan, folks in the region believe 
the U.S. won't have a commitment to Afghanistan. And I disagree 
with that.
    But you mentioned a few things. But can you give, you know, 
what are three specific steps the U.S. can take to show that, 
yes, this is a long-term--we have a long-term commitment to 
Afghanistan that is different than the one we had, but is still 
a commitment to Afghanistan?
    General Mattis. Yes, sir. The first point I would make is 
that the way we are drawing down right now with the President's 
plan allows us to keep our troop strength in the field for the 
next year. That sends a message in itself. And we will then 
draw down after this fighting season.
    Further, we are going to maintain about half the troops we 
have there now through the election. That shows a commitment to 
an election that will get the country on the right path, I 
think, in terms of showing a sustained commitment to democracy 
and solving their problems through the democratic process 
rather than picking up AK-47s.
    The third point is there will be an enduring force there. I 
am confident there will be. The President has not made up his 
mind on what it will be, but both the President of the United 
States and the Secretary General of NATO, both at Lisbon and at 
Chicago, have said there will be a continued presence, enough 
to buttress the Afghan Security Forces and keep them strong and 
on the right track as they continue to mature.
    Further, I believe the Tokyo Donors Conference shows an 
international commitment, it is not all coming out of the 
pocketbooks of the American taxpayer, for a longer-term 
economic support as this country tries to get its agricultural 
sector back aligned, get their mining sector started up, that 
sort of thing. So I think it is a combination of international 
donors and a strong support for the Afghan Security Forces. So 
there is a positive future that the countries in the region can 
see there.
    Mr. Larsen. Can you remind us of the date of the election, 
presidential election?
    General Mattis. I don't think the specific date has been 
set. It is April or May of 2014.
    Mr. Larsen. Thanks. Thanks.
    General Fraser, I don't want you to feel left out, so I 
have some questions for you on logistics.
    In the NDAA [National Defense Authorization Act] 2013, we 
put some specific authorities related to sealift readiness, you 
mentioned page 15 of your testimony. Can you help us understand 
how you plan to use them?
    General Fraser. Thank you, sir. I appreciate it.
    The fact that as we look forward to the future, one of the 
things that we are, one, first most appreciative this last year 
is the recommitment to the Maritime Security Program. This 
Maritime Security Program is critical for us as we look forward 
to the future in maintaining U.S. flagships, U.S. mariners. And 
that fleet of 60 ships is very important for us. It gives us a 
capability, gives us a capacity which we can draw upon as we 
move forward in the future.
    It is also important as we look at the entire reserve fleet 
that we make sure that we maintain that in a state in which we 
could call upon should there be a need for it. But also, we are 
going to have to work together with our maritime partners to 
make sure we maintain the right balance. As we continue to see 
a drawdown of forces out of Afghanistan, as we saw in Iraq, we 
have seen the business come down. So our business partners are 
seeing less business in the maritime industry as well as the 
aviation industry. And so as we go forward in the future, how 
do we maintain that right balance?
    And so we are working with our partners through executive 
working groups in both the ground, the air, and the sea lanes 
there to make sure that we have that right balance, and they 
adjust their business plans for the future. So it is a 
collaborative effort, working with industry really across all 
the various modes of transportation right now. And so that is 
where that is.
    Mr. Larsen. Does that relate as well to your comments on 
page 17 about railcar capacity?
    General Fraser. Yes, sir, it does. As we look at the 
capacity that is needed for the Army, and to get to the ports, 
we are in need of flat railcars; in fact, the requirement is 
over 5,000 flat railcars are needed. The Army owns----
    Mr. Larsen. Just for the Army?
    General Fraser. Yes, sir.
    Mr. Larsen. Not TRANSCOM as a whole, but just the Army.
    General Fraser. This is TRANSCOM as a whole, what we need 
to get to the ports, from the forts to the ports. So we partner 
with the commercial industry, with the rail industry to utilize 
their flat railcars. And so we are working with industry on 
different ways in which either we could purchase more railcars, 
or we could service-life-extend railcars, maintain that 
capacity.
    Mr. Larsen. Thanks. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Gentlemen, in these posture hearings we never want to miss 
an opportunity to, one, thank you for your service, but also 
thank you for the professionalism you have brought to each of 
your roles in this very unstable time.
    We also don't want to miss an opportunity in thanking the 
chairman for trying to bring some stability to a very unstable 
military funding situation. Mr. Chairman, thank you for 
continuing to do that.
    We learn so much from you. Yesterday Admiral Locklear was 
here, and he told us something that we could extrapolate to our 
jobs. He said when it comes to the Pacific area, we can't 
always make China and some other countries do the right things, 
the things we would like for them to do. So we have three 
roles. One is to deter them from bad acts; secondly, to assure 
our allies and our friends that we haven't abandoned our 
principles; and, third, to try to prevent them when they do bad 
acts from having more harm than otherwise it would.
    Well, our roles are pretty much the same way. We try to 
deter bad acts from Congress and from the Administration, and 
sometimes we fail. We knew, many of us in here, when we passed 
a very expensive trillion-dollar healthcare bill that it would 
come off the back of defense and out of our budget. We tried to 
deter that; we failed. We knew when we passed the stimulus 
bill, those $825 billion and $347 billion of interest, exactly 
the amount we have cut out of defense, we knew where it was 
coming, we tried to stop it and deter it; we failed. We knew 
when the Administration took $800 billion of cuts over the last 
4 years--by the way, 19 times the amount of cuts that are going 
to come from sequestration this year--it was a bad policy. We 
tried to deter it, and we failed. And many of us believed when 
sequestration was proposed by the Administration, it was a bad 
policy. We tried to stop it, and we failed.
    Having done all that and failed, we want you to know and 
assure you that we haven't abandoned our principles, and we are 
not going to accept the substitution of budget analysis for 
strategic analysis.
    The other thing we are going do is what the chairman said. 
Having had those bad acts, we are going to try to prevent them 
from having more harm than necessary. And the way we are going 
to do that is with that CR today, which starts us down the path 
to give you more predictability. But we are not going to stop 
there. We are going to work very, very hard in the budget 
process to get the dollars bumped back up to where they need to 
be in national defense.
    And my question to you today is this: We are looking today, 
we talked a lot about Afghanistan, we talk a lot about other 
areas, but one of the things we are hearing a lot about is 
Iran. And I would appreciate you describing your impression of 
Iran's A2/AD [Anti-Access/Area-Denial] capabilities and 
specifically to the U.S. Navy's role in keeping open vital 
waterways like the Straits of Hormuz. Do you feel CENTCOM has 
sufficient Navy resources to adequately counter Iran's A2/AD 
challenges? And if not, what does this committee need to do to 
try to help you?
    General Mattis. Mr. Forbes, the area access denial effort 
of Iran is pronounced. It is improving in both numbers and 
accuracy, capability.
    There are basically five threats out of Iran. One is the 
latent nuclear. One is the MOIS [Iranian Ministry of 
Intelligence and Security] Quds Force, the people and their 
surrogates like Lebanese Hezbollah. One is the ballistic 
missile force. Another is their cyber efforts. And then you 
have--let me think. There is a fifth one there. Well, that is 
all five, right there.
    The anti-access is best addressed by a joint force. It is 
not just the U.S. Navy's capability. I do have what I need. I 
have requested the Army, Navy, Air Force, Marine, and Coast 
Guard assets. I have them, or I have them on alert in your 
State, sir. And we are in a position that should Iran try to 
take advantage of this current situation, we could make it 
their longest day and their worst day with what I have there.
    Mr. Forbes. Thank you, gentlemen.
    With that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General Fraser, it is good to see you again. We had a great 
conversation yesterday, and I very much enjoyed what we spoke 
about. One of the things I learned was we spent a lot of time 
talking about merchant marines, and it was interesting to be 
talking to an Air Force general about surface fleets.
    Could you speak a little bit here what you said to me in my 
offices about what would happen to the surge capacity should we 
have to lay off the merchant marine fleet and we have to move 
those ships from the readiness level they are at to the point 
where we actually have to lay off those crews, and what that 
would do to your ability to surge as needed by DOD.
    General Fraser. Thank you, ma'am, very much. I, too, 
appreciated the time yesterday.
    And if I might, just briefly, is the fact that we rely on 
commercial partners to meet our requirements as far as a surge 
capability goes. This is also not only in that area, but it is 
also through other maritime assets. And what I am talking about 
there is because we have to work with other agencies, speaking 
specifically now about the Maritime Administration, we 
coordinate work with the Maritime Administration as they work 
with the National Defense Sealift Fund.
    As we look at the CRs, we look at the sequestration, 
everybody is going to get hit by this, and the unintended 
consequence and second- and third-order effect of this may 
result--and the reason I say ``may result,'' because decisions 
have not been made--that they have to move some ships that are 
in the Ready Reserve Fleet to a less-ready operating status. So 
those ships that are in a reduced operating status of, say, 5 
or 10 days right now actually come with crews, and they are 
able to surge when there is a requirement. And so those crews, 
those merchant mariners are ready to go, and they are going to 
be able to move forward. If they have to find the necessary 
savings, and if a decision is made to move them from the Ready 
Reserve Fleet to the National Defense Reserve Fleet, that moves 
them to a further reduced operating status of upwards of 30 to 
maybe 120 days. Those ships then are really not readily 
available.
    The other thing, unintended consequence, that comes with 
that, they lose the crews. They lose the merchant mariners that 
are then assigned to them. So we could upwards see loss of jobs 
and merchant mariners if they move to further reduced operating 
status. And that is what we spoke about.
    Ms. Duckworth. Thank you, General.
    One of the other things we chatted about was some of the 
cost-saving measures you have already implemented in your 
command. For example, you talked about lessons learned from 
commercial aviation with how you choose to carry or not carry 
fuel in your aircraft and the cost savings that come from that.
    General Fraser. Thank you.
    The command has been looking forward. We have gone through 
a strategic review this last year. We are also doing a cost-
conscious look at everything that we do. We are developing some 
tools which will allow us to make better decisions from a cost 
perspective.
    The one that you briefly spoke about there has to do with 
tankering fuel. We have worked with Air Mobility Command, 
because in the past, as aviators, and we discussed we always 
thought you wanted to carry the minimum amount of fuel on an 
aircraft so as to accomplish the mission, and then refuel once 
you arrive at a location.
    Through a best-business practice in industry, what we have 
actually learned, and we have now developed a matrix, is where 
can we buy fuel at a less price. And it actually shows us that 
when we fill up in other locations or do tech stops and fill up 
there and carrier heavier into, say, Afghanistan and not have 
to refuel in Afghanistan, we actually wind up and save millions 
of dollars. So using that best practice on our organic aircraft 
is resulting in some significant savings.
    There are other areas that we have looked to better load 
out our aircraft. That is a pilot bill that has gone into a 
training program. We are assembling individuals at common 
locations so that we can fill up our aircraft that are carrying 
passengers through TransViz, a new tool that we have or have 
had out there for some time period, to fill up the aircraft.
    The other thing that we are doing is with our containers is 
mandating in our contracts they be filled to a minimum of 80 
percent full, which reduces the number of containers that we 
have to move.
    So there are a number of other initiatives that we are 
instituting in the command that are resulting in significant 
savings.
    Ms. Duckworth. Thank you.
    And I would like to close by saying, General Mattis, on 
behalf of my father, who was a marine who landed on Iwo Jima, 
thank you for your many, many decades of service and devotion 
to this Nation. Thank you.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General Mattis, I am going to ask you a question about the 
drug trade in Afghanistan. As we look to the trends on the 
production of poppy, it appears that it is on the way up while 
we are on our way out. But I am going to submit that question 
for the record, and I am going to yield my time to Brad 
Wenstrup, who, being down in front, usually has to wait a long 
time to ask a question. So I yield the remainder of my time to 
Brad.
    The Chairman. Gentleman is recognized.
    Dr. Wenstrup. I thank you, Mr. Turner, for yielding your 
time.
    And thank you, Mr. Chair.
    Gentlemen, I want to express my gratitude and admiration 
for your lifetime of service to our country.
    We all have a concern, always, about our personnel and 
readiness and deterrence, and our abilities in those areas, 
both short-term and long-term. And certainly those burdens 
weigh upon your shoulders, and what comes with that is our 
budget concerns. And, hopefully, we will be relieving some of 
those for you on behalf of defending our Nation.
    But you know your needs very well, and putting budget 
aside, what would you say are your top one or two priorities or 
needs as we go about completing our missions over the course of 
the next year?
    Admiral McRaven. Sir, I will start, if you don't mind.
    We have done an extensive study. My predecessor, Admiral 
Eric Olson, took a look at the Special Operations community, of 
which there are about 66,000 men and women in the community and 
their spouses, to take a look at the health of the force, and 
he conducted this about 2 years ago. The report landed on my 
desk after I took command in the summer of 2011. And he 
determined at the time that the force was fraying. And as I 
have said before, in the 18 months that I have been in command, 
frankly, the force has continued to fray at a fairly rapid 
pace.
    But one area where I think we need to focus our attention, 
we do pretty well by our service members, but it is in terms of 
some of the family support programs and the resiliency 
programs. This is where I am working with the Services, and I 
am working with Capitol Hill, and I am working with OSD to 
figure out can we continue to support our families, because I 
have made the families a readiness issue.
    The Services do a magnificent job of taking care of our 
families in terms of health care and support to the families, 
but in these trying times, if you are not going above and 
beyond to take care of the spouses and the kids, then that 
directly affects the readiness of the service members. So we 
are trying to find out what is the right balance between taking 
care of the member himself, which, again, I think we do a 
pretty good job of, and then supporting the family members.
    General Mattis. Dr. Wenstrup, right now probably my biggest 
needs are ballistic missile defense because of the growing 
ballistic missile threat in the region. That would help 
reassure our allies as well, who are also improving their 
defenses.
    The second one, I would say, is naval forces. It is going 
to be a more naval theater in the future than it has been in 
the past. And so by having embarked troops, by having ballistic 
missile defense at sea, mine-sweep capability, strike 
capability, cruisers and destroyers for escort, we send a 
stabilizing message throughout the region.
    For example, you remember you used to hear a lot about 
mining the waters, mining the Straits of Hormuz by one nation 
out there. We ran an international mine-sweeping exercise back 
last September, and you haven't heard anything since. I hoped 
to get 12 nations out there; we ended up with 35 nations from 5 
continents. I was even looking for a penguin from Antarctica so 
I could get them all.
    But my point is after that point of 35 nations coming out, 
including nations like Canada, Estonia, Japan, Singapore, 
Djibouti, all across the world it just quieted things down.
    So right now, thanks to the Army, Navy, Air Force, Coast 
Guard, Marine Corps, I have what I need at this point. But 
those would be my top needs.
    General Fraser. Thank you, sir.
    First and foremost for me is taking care of our people. 
They are the ones that are making the decisions in the defense 
transportation system and assuring that they have the right 
tools, they have the right education to be able to make those 
cost-conscious decisions. So ensuring that we are taking care 
of them and building that capability and capacity as we move 
into the future, because we have already seen some of the great 
things they can do with--you term them loose with innovation.
    The second thing I would say is budget certainty. And the 
lack of budget certainty right now is going to have an 
unintended consequence on our command. Our command is 
comprised, as I have said before, of organic and commercial 
capabilities, and without budget certainty, and without the 
ability to build a plan for the future, then it makes it very 
difficult upon the Services to build a solid plan.
    And that has that unintended consequence to our commercial 
partners. Those businesses that are out there making those 
decisions whether they are going to be with us or not as a part 
of the CRAF [Civil Reserve Air Fleet] program, or if they are 
going to be a part of the VISA program, the Voluntary 
Intermodal Sealift Agreement. These types of things create that 
uncertainty.
    The lack of budget certainty also affects me in a working 
capital fund. I think this is an unintended consequence a lot 
of people don't realize with a working capital fund. And so 
when I don't have my 7 to 10 days of working capital cash, and 
I draw down on that because I am not generating revenue, then 
what happens is that creates an uncertainty, is going to draw 
down my readiness my ability to respond. And so the drawdown on 
that and the lack of budget certainty is one of the things that 
is going to, I think, increase our risk in the future to 
respond in a very timely matter.
    Dr. Wenstrup. Thank you, General.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman. And thanks to the 
witnesses for their excellent testimony and for their 
leadership and patriotism.
    And to you, General Mattis, I join with my colleagues and a 
very grateful Nation to thank you for your many years of 
service. Your leadership will be missed, and we wish you well 
in retirement.
    I do have a couple of questions for you, General, 
specifically with regard to a couple of options we have for 
continuing to support our mission even as we withdraw 
particularly from Afghanistan, and that has to do with the need 
for counterintelligence and human intelligence as a bedrock for 
our future military posture in the region.
    I am very fortunate. In my district we have Fort Huachuca, 
where a lot of the training in human intelligence takes place, 
an outstanding facility and training. As we transition, 
General, from Afghanistan, where do you see the need for 
American human intelligence capacities in the region, and how 
can we build our partners' capabilities on human intelligence 
in the region after the planned drawdown from Afghanistan?
    General Mattis. First of all, sir, I would just reinforce 
your judgment on this. The kind of enemies we fight today, sir, 
you can't just count their tanks from outer space with a 
satellite; you need human intelligence, you need people who 
understand the culture of those areas and can really get into 
what is driving people to certain decisions, certain actions.
    We have found, for example, in Afghanistan, under the 
threat of the insider attack, that this was the way to address 
it, and we have stood up and built up the Afghans' internal 
capability. It is too early to say why the attacks have dropped 
so dramatically, but I am fairly confident that it was the 
emphasis here that has helped drive that number down 
significantly.
    I would say, too, that working with the other nations--and 
this is where we need the authorities to be able to work not 
just with their ministries of defense, because sometimes the 
people that they organize to carry out the counterintelligence 
mission are not in their ministry of defense--I need the 
authority to work with them, bring them to Fort Huachuca, in 
many cases, and give them the kind of training that we use, 
which allows us to adapt to the changing character of the 
threat in the area.
    But I think it is mostly a matter of training, because this 
is something you cannot mass produce. You have got to turn out 
skillful people on this and people who are imbued with an 
ethical approach to how they do this duty.
    So that is the direction I would take on it, sir, is 
working through the training effort, both at home and away, to 
help them on this.
    Mr. Barber. Totally on the same page, General.
    Second question for you has to do with yet another way in 
which we are seeking out the enemy and taking the enemy out, 
and that has to do with our unmanned aerial systems.
    Again, I am pleased to say that two installations in my 
district are instrumental in this, Fort Huachuca and Davis-
Monthan Air Force Base. They have been critical in the 
counterterrorism efforts in both Afghanistan and Pakistan. But 
I am concerned about our ability and our allies' ability to 
target terrorists such as the Haqqani network along the 
Afghanistan and Pakistani border.
    Is there a long-term plan for American unmanned 
reconnaissance after the planned drawdown of our forces, and 
what capacity does the Afghan National Security Force have for 
unmanned aerial platforms to target terrorist networks?
    General Mattis. Sir, the Afghans do not have that 
capability yet. It is one of the enablers that we are trying to 
build into them before we leave. I can only speak to the use of 
these unmanned assets inside Afghanistan where my forces use 
them.
    The long-term view is that we will continue this so long as 
we are there. We will transition this capability, standing it 
up inside the Afghan forces so when they leave, they have the 
ability to keep an eye on that border area. I have operated 
many years around the world, and I have never had more 
difficult military terrain to operate in than along that 
border.
    So what you are pointing out is critical. We will have to 
see what level the President decides to leave as far as our 
forces there, and what level of coaching, of mentoring we can 
give to the Afghans. But there is a number of ways that we can 
get this capability stood up with the Afghans from a more 
rudimentary level to the more sophisticated level, and we will 
just have to work on it, sir.
    Mr. Barber. General, just a final point. There is no plan 
at this stage to continue our use of those unmanned vehicles to 
take out targets after we leave?
    The Chairman. Sir, the gentleman's time has expired.
    General Mattis. That decision has not been made yet by the 
President, sir.
    Mr. Barber. Thank you.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Let me share with the gentlemen, thank you for 
being here this morning, and, General Mattis, a heartfelt, 
sincere thank you for your dedicated service, and Godspeed on 
whatever new chapters you open in the days ahead of you.
    Yesterday in talking to the Senate committee, you talked 
about a potential collapse of the Assad regime in Syria, and 
that you were working with regional partners to try to see what 
the responses might be.
    You also mentioned the idea of arming the opposition or the 
rebels, that you have not been tasked with knowing who to arm 
and who not to arm. Can you fill in the blanks, kind of the 
gaps there, as to how you would deal with a collapsed Assad 
regime, but not know who those folks are yet that are still in 
place to fight?
    General Mattis. Yes, sir. Well, we are not operating inside 
Syria, of course, right now, and so the organizations that are, 
which are a pretty wide range of organizations, as you know, I 
don't have that kind of fidelity on them right now.
    We are working with regional powers, so we are getting a 
pretty good idea of what is going on inside the country, and 
there are, of course, some regional states that are supplying 
weapons, and we believe that their weapons by and large are 
getting to the right people, and they are not--in other words, 
they are not going to the wrong people.
    The planning that I am doing has to do with countries that 
are concerned about what is going to be there the day after 
Assad is gone, and what we can do working with them and other 
regional powers that would come in to help as we deal with the 
day after; in other words, the sectarian and the ethnic 
divisions that are probably going to be rife at that point. But 
right now I have not been tasked with providing weapons or 
other resupply to opposition forces, so I have not moved those 
kind of forces into the region there to get that situational 
awareness. Does that answer your question?
    Mr. Conaway. It does. There are no easy, good answers in 
Syria. No one is obviously doing that. But knowing that some 
planning is in place to try to know who, because that is going 
to be the big deal, and also, you said yesterday that you think 
that the Iranians will be particularly mischievous and opposed 
to Assad regime as well with respect to the militias, and those 
are the same people that we are thinking about helping.
    Admiral McRaven, in your statement you talk about--and I 
will have to read some of this--a joint urgent operational 
needs statement that you use to source an ISR [Intelligence, 
Surveillance, and Reconnaissance] platform or ISR something. 
And kind of a multipart question with respect to that. SOCOM 
has its own quick response kind of ways to buy things. Can you 
walk us through why you use the DOD version, how did it get 
paid for, why is that--you also sound like you relied more on 
the DOD-level joint operational statements versus your own 
authorities.
    Can you walk the committee through, and what was the 
overwhelming requirement behind the--or that we need for the 
requirement that you took this tack on?
    Admiral McRaven. Yes, sir. The Joint Urgent Operational 
Needs Statement, or JUONS, as we refer to it, is normally 
initiated from somebody in the operational unit, so if there is 
a demand signal that comes from an operational unit in the 
Special Operations meeting around the world, that gets to us. 
We actually have a very short time frame, a couple of days, 
where we have to take a look at that JUONS. We got to validate 
that to determine whether or not that operational need is, in 
fact, an urgent operational need, and we have a couple of 
avenues by which we can begin to put money against a particular 
operational need.
    We can go through the joint service system, as you pointed 
out, or internal with SOCOM within some acquisition parameters 
if it is a small purchase, and we can rapidly field it and get 
it into the battlefield quickly. We have the capability to do 
that. If it is a larger requirement that, in fact, requires an 
acquisition program, then, sir, we have to go through the 
standard acquisition process.
    But SOCOM does have an accelerated means of taking an 
operational need from a soldier, sailor, airman, marine in the 
field and turning that pretty quickly, producing an object, and 
getting it back; the capability of getting it back to that 
soldier's hands as quickly as possible.
    Mr. Conaway. In that regard are there things about that 
dual-approach system that we need to fine-tune? In other words, 
are there flexibilities that you need to decide which way you 
go? And how does the funding work on the particular way you 
pick to source it?
    Admiral McRaven. Sir, I will tell you, I think the process 
works pretty well for us right now, having the option to do it 
internally or to go through the Services, and sometimes if it 
is a larger acquisition program, or the demand, we think, might 
be a broader Service requirement after it is a SOCOM 
requirement or a SOF requirement, then, frankly, we will work 
through the Service systems.
    So, I am pretty happy with the flexibility we have right 
now in dealing with the urgent operational requirements coming 
from the field.
    Mr. Conaway. All right.
    Sorry, General Fraser, I ran out of time.
    Yield back.
    The Chairman. Thank you.
    Mr. Veasey.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, thank you all for your service to the Nation, 
and we are very proud of the distinguished careers that you all 
have led. Thank you very much.
    I would like to know, General Mattis, what are America's 
core enduring interests in Afghanistan, and how would you 
prioritize those?
    General Mattis. Sir, if we go back to 9/11 and we look at 
the situation we confronted, our enduring interests are that 
Afghanistan be able to govern its own country, and the kind of 
people that set up shop there to attack our country are not 
allowed to again in the future. That is the core enduring 
interest.
    It means that we have got to help Afghanistan get on its 
feet as a country. We are going that right now both in a 
security realm and, more broadly, through the State Department 
programs.
    I think that the priority would be initially, as it has 
been, the security effort so that we can protect the Afghan 
people from this enemy and allow them to set up a country again 
after the trauma they have been through for decades now. But I 
think once we get to a point where Afghanistan is under Afghans 
who are responsible, who do not have the medieval view of the 
world that some of the Taliban and people they allowed to come 
in, Al Qaeda, then I think that we have got it on the right 
track, sir. But the priority, I would say, is the security and 
then the economic and social and governance things that can 
follow.
    Mr. Johnson. All right. Thank you.
    The Afghan security forces, of course, are key to ensuring 
the kind of stability that you just indicated. By what metrics 
are we measuring the effectiveness of the ANSF?
    General Mattis. First of all, we have training metrics, 
recruiting and training. So we organize them, we equip them, we 
train them, and then we put them out, we graduate them. That is 
one set of metrics.
    We try to bring them up with an ethical understanding of 
the use of force, but also that the tactical skills be better 
than what they are going to confront against the enemy.
    Once in the field we rate them operationally, and there we 
evaluate their ability to operate on their own. Of course, it 
takes a little while to stand up an army in the middle of a 
war. We remember that from our Revolutionary War days when the 
French were the regulars, and we were the irregulars, and they 
had their advisors helping us stand up. Not much has changed, 
frankly, sir. It is still how do you mentor them, coach them, 
build their capability, but more importantly their confidence.
    Let me just give you a quick statistic that will show you a 
measure. Since the first of January, I have lost four of our 
wonderful troops killed in action there; 2 months, going into a 
third, four troops.
    The Afghan security forces have lost 198 killed. Nothing 
can more graphically and perhaps grimly show that the Afghan 
boys are taking the bulk of the fighting now, and I would just 
point out that this is a continuing trend; this is not just a 
snapshot. We have seen this coming for some time as they step 
up to do the fighting, sir.
    Mr. Johnson. Well, that is indeed encouraging news, and I 
think it is just human nature that when folks are assisted as 
they stand up, they end up standing up strong and doing--they 
make do with what they have. But I know they have been asking 
us for things like F-16s, armor, and other forms of advanced 
weaponry.
    Do you see that they are ready for that at this time or 
will be ready for that at some point in the near future before 
we cease our combat operations?
    General Mattis. Well, sir, as you know, we are shifting 
from combat operations to advise-and-assist operations 
literally right now, and you see that in the statistics.
    We would have to look at what the threat is to them, what 
they need to defend their country. The initial threat right now 
is really an insurgent enemy, and we are building up some air 
transport capability so they can move troops around the 
country. That is under way. We are building up some turboprop 
aircraft that will allow them to use air support against an 
insurgent enemy, and we would have to evaluate the requirement 
before we went to that next level that you are pointing out. I 
have not gone to that level yet, but I am aware that there is 
interest, sir.
    Mr. Johnson. Thank you, General, and enjoy your retirement 
as well.
    Mr. Thornberry. [Presiding.] Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to first thank General Mattis for your 
leadership. I have had sons over in Iraq and Afghanistan, so I 
truly do appreciate your leadership as relates to CENTCOM.
    And to our other distinguished panelists, Admiral McRaven 
and General Fraser, I really want to thank you for your service 
to this country.
    But to General McRaven--I am sorry, Admiral McRaven. My 
apologies. Underseas mobility programs have had a troubled 
history, but I believe the capability to insert a SEAL [Sea, 
Air, Land] team undetected anywhere connected to an ocean is 
absolutely worth overcoming any issues that we may have had. 
Overcoming the engineering and political challenges, you know, 
SOCOM, I know, needs to replace the Mark 8 SEAL Delivery 
Vehicle, the wet, and with a new wet submersible, but also 
supplement that capacity with a dry submersible variant that 
can deploy underwater.
    I would like to know, if you would, talk about some of the 
obstacles impeding those various undersea mobility programs and 
what has caused the delay of initial operational activity or 
capability of the wet submersible; and then also, if you would, 
then go to the dry submersible vehicles, both of which I would 
think would give you added options in regards to inserting our 
SOF guys where they need to be without being noticed.
    Admiral McRaven. Sir, thank you very much.
    As you point out, really over the last decade or so as we 
have--we, the naval special warfare community--has folks on the 
fight in Iraq and Afghanistan, and we put a lot more of our 
emphasis in there, we had to kind of deemphasize our support 
and our look in the undersea mobility. That is now changing.
    Again, my predecessor, Admiral Eric Olson, put a fair 
amount of emphasis into this, and I am following on in that 
regard. And we have two programs, as you mentioned. The wet 
submersible that will replace the Mark 8, my understanding is 
we now have a prototype under contract, so that is good for us 
to take a hard look at whether or not the prototype will, in 
fact, meet the requirements of the SEALs and the SEAL Delivery 
Vehicle teams. And we have two prototypes that we are working 
with some foreign countries to take a look at our dry 
submersible.
    We will essentially take a look at both of those, make a 
good business case, a business analysis as well as an 
operational analysis of the requirements of one or both of 
those, and then figure out where we go from there.
    So actually I am pretty comfortable with the track that we 
are on now in terms of both our wet and dry submersible 
capability.
    Mr. Nugent. What support do you need from this committee or 
Congress to make sure that those two capabilities happen?
    Admiral McRaven. Sir, I think, as always, having the 
congressional oversight is important to us. Frankly, it makes 
sure that we stay focused on meeting our timeline for bringing 
a product to the fleet and making sure that, frankly, our 
business partners also are doing their bit to ensure that 
happens. So having congressional oversight and making sure that 
we are kept on task, I think, is important.
    Right now I have the funding I need, for the most part, to 
do both of those programs, and certainly if we are short of 
that, we will come back and talk to the folks on the Hill. But 
right now, sir, I am, again, comfortable with where we are in 
regards to both those programs.
    Mr. Nugent. And I certainly understand the position that we 
had to do, I mean, where we had to be and shifting focus, but I 
am glad to see the focus is coming back on a well-rounded 
capability for us to insert troops.
    And lastly, for General Fraser. The Mobility Command is so 
important to us now and in the future. Having had sons fly back 
and forth to Afghanistan and Iraq, I certainly appreciate it, 
but more importantly, providing the support and supplies that 
they need to have. I want to make sure that you have the proper 
resources to make sure that--we don't know where we are going 
to be next, and that we have the proper resources to meet that 
challenge.
    General Fraser. Thank you, sir. And I, too, am confident 
that we have what we need right now.
    But, however, I am not sure, as I look forward into the 
future, with the uncertainty and with some of the lack of 
flexibility with the budget process, that we will be able to 
maintain that same level of readiness as we move into the 
future. So we are going to have to continue to work together 
with all the Services and with other agencies to make sure that 
we maintain that capability and capacity at the right readiness 
level, because we don't know when that next call is going to 
come, whether it is in response to a crisis somewhere or 
actually to a humanitarian aid requirement. But we will 
continue to work with you, but we are okay right this minute.
    Mr. Nugent. Mr. Chairman, I just want to thank all of you 
again for your service, and particularly our neighbors down to 
the south in Tampa, where I am just north of, so we want to 
appreciate your service. Thank you.
    Mr. Thornberry. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you all for your testimony today 
and, as always, your extraordinary service to our Nation, and 
particularly to General Mattis. You have a long and 
distinguished career and a lot to be proud of, General, and I 
wish you all the best as you enter this new chapter in your 
life
    Admiral McRaven, if I can start with you. In terms of 
resourcing and training and equipping a global-style 
capability, can you talk about the impact that our commitments 
in Afghanistan have and your ability to provide forces to other 
geographic combatant commanders?
    Admiral McRaven. Sir, thank you.
    As General Mattis is wont to say frequently, most of the 
Department of Defense resources over the last 12 years have 
headed to CENTCOM. That is true of my Special Operations Forces 
as well.
    About 85 percent of my deployed Special Operations Forces 
are currently in the Central Command AO [Area of Operations]. 
As we begin to draw down in Afghanistan, and depending upon 
what those numbers look like--and that is a kind of a constant 
dialogue between myself, General Mattis, General Dunford, and 
obviously the Joint Chiefs, and the OSD and the President in 
terms of what that requirement might be--but my expectation is 
in either case, or however it unfolds, we will have additional 
capacity in terms of Special Operations capability.
    Right now, as I look at building the SOCOM strategy to 
support the Defense Strategic Guidance that was signed out by 
Secretary Panetta in 2012, it is about building partner 
capacity globally, and this is about strengthening our 
alliances, building a network, and therefore, my expectation is 
I will be able take some of that capacity coming out of 
Afghanistan and be able to push that capacity to other 
combatant commanders.
    Sir, as you know, I am a support team commander. My job 
really is to provide the resources to the geographic combatant 
commanders. They are the ones who actually have the operational 
control of the forces once they are in theater.
    Mr. Langevin. Admiral, can you talk more specifically, too, 
about your planned commitment of U.S. SOF's mission in 
Afghanistan through 2014 and beyond. You just touched on it 
broadly but----
    Admiral McRaven. Sir, last year we brought the three 
components of U.S. Special--or Special Operations in 
Afghanistan together under two-star headquarters, and this is 
really a watershed event for us. So we took the what we call 
the CFSOCC-A [Combined Forces Special Operations Component 
Command in Afghanistan], the Green Berets, if you will, that 
were building the Afghan SOF Security Forces, we took our 
direct action element, and then with the support of our NATO 
SOF brothers, we pulled all those together under what is called 
the Special Operations Joint Task Force, or SOJTF. That SOJTF 
is in place, as I mentioned in my opening remarks. It has been 
incredibly effective in taking a look at the common threat and 
then making sure that we have a SOF response to that threat in 
Afghanistan
    As we move forward, we clearly think that we will be 
focused on the counterterrorism threat, and as General Mattis 
mentioned earlier, we will continue to do the training of our 
Afghan local police, of our Afghan commandos, and of our Afghan 
Special Forces. So the counterterrorism piece and training 
piece will remain enduring for us through 2014, sir
    Mr. Langevin. Thank you, Admiral.
    General Mattis, if I could turn to you. I continue to be 
concerned about the capabilities of our bases to withstand a 
cyber attack directed against outside supporting 
infrastructure, such as the electric grid, which you are 
dependent on, but don't have the responsibility to or the 
capability really to protect.
    Last year you testified that you assessed both the more 
modern enduring bases as well as the tactical ones to ensure 
that they could continue to operate, and that you were 
satisfied that the proper mitigation networks and generators 
were available if needed. But can you update us on the progress 
that has been made in evaluating the ability of our bases to 
withstand--of our bases within USCENTCOM to operate and recover 
in the event of such an attack based on the increased advanced 
persistent threat environment, and also specifically focused on 
the linkages and integration of USCYBERCOM [U.S. Cyber Command] 
to support your cyber efforts under your command.
    General Mattis. Yes, sir. It is a great question. Over the 
last year we have got a much tighter bond with CYBERCOM. They 
have matured capabilities and embedded some of them inside my 
command. We are constantly reviewing the vulnerability.
    I would like to take part of your question for the record 
and answer you with some of the classified information that 
shows the resilience that we have put into the various networks 
and the workarounds we have. We anticipate that it is a 
worsening and increasing threat, frankly, and where you cannot 
get complacent about it.
    I would even go so far as to say that where last year I 
told you I thought we were in pretty good shape, I think we 
have to do more work now, and we are doing that. We have got 
some very capable help from Cyber Command. And I will give you 
a more complete answer, including the classified details that 
will give you a better picture of what we are doing so, sir.
    Mr. Langevin. I would appreciate that.
    Again, General, thank you for your service, and, gentlemen, 
thank you for your testimony and your service as well.
    Thank you. Yield back.
    Mr. Thornberry. I think we are just about to have three 
votes, and the chairman's plan is to recess during those votes 
and reconvene as soon as possible when the last vote starts. It 
could be two, it could be three votes, but just to give Members 
a heads up, I think the chairman wants to begin as soon as 
possible when the last vote starts.
    But in the meantime I recognize Mr. Scott for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    General Mattis, thank you for your service, and I will tell 
you, you mentioned the issue in Syria, and one of my concerns 
is how we stop--when Assad is gone, how we stop the attacks on 
people from his particular sect, if that is the proper way to 
put it.
    And, Admiral, thank you for your service.
    I want to focus, General Fraser, if I can, because I 
represent Georgia Robins Air Force Base, and I have Moody Air 
Force Base as well. And my questions revolve around lift 
capacity. I know that one of the last questions you answered, 
you said that you were confident that you had the lift capacity 
that you need right now. Did I understand that correctly?
    General Fraser. Yes, sir
    Mr. Scott. Do we currently lease lift capacity from other 
countries?
    General Fraser. Sir, with respect to our strategic CRAF 
partners, we contract directly with them. There are some 
foreign companies that they subcontract to. We also maintain 
and retain the ability to do some foreign contracts. When the 
U.S. does not present the capacity or the capability in certain 
areas, such as short takeoff and landing, we have done with 
foreign carriers. We have also done some with some helicopter 
capacity where the U.S. didn't have it within the CRAF piece. 
But we do retain that ability to do it.
    Mr. Scott. Which countries do we lease that capacity from?
    General Fraser. Sir, I would like to take that one for the 
record, and we will get you a more thorough list.
    [The information referred to can be found in the Appendix 
on page 123.]
    Mr. Scott. That is fine. Can I ask it in this way: Do we 
lease any lift capacity from Russia at this stage?
    General Fraser. Sir, we have, through some of these 
subcontractors. They have utilized the Antonov, the 124s, for 
some oversized/outsized, and that was the--as I recall looking 
at one of the last contracts that we had, it was directly with 
one of our CRAF carriers, who then subcontracted for that 
capacity and that capability.
    Mr. Scott. Okay. I will appreciate that response and more 
detail on that. I guess one of my concerns is that when we do 
the analysis, if we are counting on the ability to lease 
capacity from somebody who might very well be on the other side 
of the conflict next time, obviously that ability goes away. I 
don't think they would lease it to us if we were fighting them.
    General Fraser. We do the analysis. It is organic, and 
those who are our CRAF partners is who we build the analysis 
around and the million-ton miles per day that are needed.
    Mr. Scott. I know a lot of your equipment will be coming 
back into the Savannah port when it comes in from overseas, and 
if there is anything that we can do, as somebody who represents 
that area, to help you out, I hope you will stay in touch with 
our office.
    And my men and women at Robins Air Force Base do a great 
job of rebuilding the C-5s [Galaxy strategic airlifter] and the 
C-17s [Globemaster III strategic airlifter]. I respect all of 
you. I think it was a mistake to stop the C-17 buy. I think 
that is one of the best aircrafts we have ever had, and it 
didn't cost a whole lot of money to keep buying just a few of 
them and have that line up and running if we needed more of 
them.
    My concern is that when we do things like that, we end up 
with a situation like we are in with the F-22 [Raptor fighter 
jet] and the F-35 [Lightning II Joint Strike Fighter], where we 
cancel one before the other one is ready to go, and who knows 
when we will be manufacturing an F-35 and putting them into use 
in this country.
    So, thank you for your service. I look forward to the 
answer on the other.
    General Fraser. Yes, sir.
    Mr. Scott. Mr. Chairman, thank you.
    Mr. Thornberry. Thank the gentleman.
    I think we have time for Mr. Garamendi to ask questions?
    No? You prefer to wait and come back. Okay.
    We will recess and reconvene as soon as possible after the 
last vote in the next series starts.
    [Recess.]
    Mr. Thornberry. We will reconvene the House Committee on 
Armed Services, and our next Member to pursue questioning is 
Mr. Garamendi.
    Mr. Garamendi. Thank you. I hope you were able to get a cup 
of coffee or at least take a break, repast from all of this.
    Thank you for your service. There are many, many questions. 
Most of them revolve around the budget issues. I suspect you 
know that we are presumably going to vote on a sequestration 
and CR bill here in the next couple of hours. Apparently it 
deals with the military, but I am not sure it goes in every 
piece of it. And this question deals with the Transportation 
Command.
    Assuming the appropriation level that was agreed to between 
the House and the Senate but never passed in November of 2012 
goes into place, how will that affect the maritime portions of 
your command, General?
    General Fraser. Sir, thank you very much. And not knowing 
the specifics of what is in the bill, of course we are 
responsive to the Services' requirements to transport items. 
And so I would imagine this would help them with respect to 
their budgets, and hopefully that that would allow them to then 
communicate with us what level of funding they have, and give 
us then more predictability as we do planning with both organic 
and commercial capabilities, and that would be both across 
whether it is land, air, or maritime.
    And so the other piece tied to that, though, is what it 
does to other agencies and the unintended consequences of other 
agencies that take cuts. As we look and work with the Maritime 
Administration, as we work with Military Sealift Command, it is 
necessary that we maintain the right balance, and so I will 
have to take a holistic look and work with the Services as to 
what that impact would be.
    Mr. Garamendi. If you could report back, I am on the 
maritime committee and the transportation/infrastructure 
committee, and so we cross over there. So if you could do that, 
that would be good.
    [The information referred to can be found in the Appendix 
on page 123.]
    Mr. Garamendi. We will probably know this afternoon at 
least what the House is going to do. As to what the Senate 
ultimately does remains to be seen.
    General Mattis, in response to Representative--a question 
about Afghanistan, you indicated that there was a drawdown that 
will occur this year and then more next year. You did not give 
specific numbers to that or even a range of numbers. Could you 
do so?
    General Mattis. Yes, sir, I can. It will be approximately a 
34,000-person drawdown between now and February of 2014. So 
that will keep the bulk of our troops there through the 
fighting season this year. Then there will be another drawdown 
that will probably commence after the election in April or May 
to help them get through their election in April/May of 2014, 
and they would draw it down to whatever the President and 
Secretary General determine is the enduring or post-2014 force, 
sir.
    Mr. Garamendi. So, in looking at the force structure, then 
you would have 65,000 in place until next February.
    General Mattis. About that number. We may draw it down 
slightly if we find forces we don't need during this fighting 
season, sir. That is basically correct.
    Mr. Garamendi. Okay. So there was some, I guess, discussion 
that there would be a steady drawdown throughout 2013. That is 
not likely to be the case.
    General Mattis. Well, I think there will be some drawdown. 
I don't think it will be commensurate each month having the 
same percentage going down, but we will probably start shortly 
as fighting season closes out to start drawing down. So it 
would start out probably in the October timeframe, not waiting 
until January. They would be out by February, however.
    Mr. Garamendi. Okay. Now, the CR that we are taking up here 
in another hour or two would provide about $87 billion for the 
Overseas Contingency Fund. Do you need that much, considering 
the drawdown of troops?
    General Mattis. We anticipate we do need that much right 
now. We will look at it every month. We are not going to spend 
any more than we need to, but right now that is our best 
estimate that we need.
    Mr. Garamendi. I thank you.
    I yield back my time. Thank you very much.
    Mr. Wittman. [Presiding.] Thank you, Mr. Garamendi.
    On the schedule, I am next for questioning, so I will 
pursue that prerogative, and, General Mattis, Admiral McRaven, 
and General Fraser, thank you so much for joining us today, and 
thank all of you for your service to our Nation. We deeply 
appreciate that.
    General Mattis, thank you for your stellar career and 
service to our Nation, and we wish you all the best in your 
months and years to come. So I know it will be a time when you 
can look in the past with a smile on your face, and so will we.
    Admiral McRaven, I wanted to go to you and ask you 
specifically about our special operators, and obviously they 
are there pursuing some pretty challenging missions there with 
village stabilization operations in Afghanistan. In light of 
the drawdown and in light of the sequester, will our special 
operators have what they need both in direct resources, but 
also in combat support as they pursue these missions there in 
theater?
    My concern has always been is that as we begin that 
drawdown, if it is not done strategically, it could place our 
special operators, who are going to continue to pursue these 
very difficult in missions, it could affect them. So two 
questions: How will it affect them, and will the mission change 
because of that?
    Admiral McRaven. Sir, right now, in working with General 
Mattis and General Dunford downrange, we have got a good plan. 
As the larger conventional forces draw down, the SOF forces 
will draw down at a commensurate level, making sure that we are 
still focused on our primary missions, which are 
counterterrorism and then training the Afghan National Security 
Forces.
    I am very comfortable with the current plan we have, 
recognizing what our mission set will be in 2013 and 2014. So, 
to your first question, sir, we do have the resources we need. 
I am very comfortable with the plan.
    Tactically, as General Dunford looks at how he is going to 
kind of collapse the conventional forces as we begin to draw 
down, we will, again, have a kind of a commensurate drawdown of 
the Special Operations Forces so that we are always in a 
position to take advantage of the enablers that are out there.
    As you know, sir, our biggest concern is always the 
availability of MEDEVAC [medical evacuation] or CASEVAC 
[casualty evacuation]. We like to make sure we are within, as 
we refer to, the golden hour, being able to get the helicopter 
support in to evacuate a wounded soldier and get him back to a 
combat hospital. And so each and every time we look at our 
combat outpost and our forward operating bases, we make sure we 
are within that golden hour.
    The other enablers that are out there, ISR, route clearance 
packages, all of that are part and parcel to the ISAC 
[Information Sharing Analysis Center] plan for drawdown to make 
sure that not only are we taking care of our conventional 
forces, but certainly our Special Operations Forces are well 
taken care of as well.
    Mr. Wittman. Thank you, Admiral.
    To General Mattis and General Fraser, I want to get your 
perspective on where you see the challenges of the difficulties 
in getting both equipment and personnel out of Afghanistan 
through the drawdown in face of the sequester and the pending 
CR that hopefully gets taken up today. So I wanted to get your 
perspective on where you see the challenges and what you are 
going to be facing with that in the months to come.
    General Mattis. Chairman, I would defer to General Fraser 
on the Working Capital Fund and whether or not that is going to 
be impacted here, but from our perspective, as the operational 
force in the field, it is a matter of concentrating the gear, 
getting it cleaned up to the right amount of cleanliness, and 
then getting it out either using air-to-sea ports, or using the 
northern distribution network, or going over the Pakistan 
ground lines of communication.
    We have just completed the proofs of principle on the 
latter through Pakistan, and I think we will see the velocity 
pick up there. We do have a plan to get the gear out. There is 
the possibility, I don't forecast it yet, there is the 
possibility we will get the troops out by the end of 2014. 
There could still be some equipment there still being in the 
process of being shipped, and I would defer the rest to General 
Fraser.
    Mr. Wittman. General Fraser.
    General Fraser. Thank you very much.
    And as we look at sequestration and the potential hit that 
that has to the OCO [Overseas Contingency Operations] budget, 
it is certainly a concern. However, there has been direction by 
the Department to ensure that the resources are there which 
should cover the retrograde that we are talking about.
    I further expand on what General Mattis has said is that we 
have built a very robust network that gives us a number of 
different lanes by which we can retrograde cargo, so we can go 
out in many different directions. I am encouraged, based on my 
visit to Pakistan last month, in the opening of the Pakistan 
border. We have run proofs of principle that have been very 
productive, and through my discussions and working with the 
theater, we are going to continue to ramp up that velocity in 
moving more through.
    The other thing is that we have given booking notice to our 
commercial partners, because there is foreign military sales 
that we need to move some equipment in, and this is going to 
help the Afghan Security Forces because they are in need of 
this equipment as they further their capacity and capability, 
and so we are looking forward to that. But everything seems to 
be moving in the right direction with lots of different lanes, 
so the capacity is there, and it appears right now that we do 
have the resources.
    Mr. Wittman. Very good.
    Gentlemen, thank you.
    We go now to Mr. Runyan.
    Mr. Runyan. Thank you, Chairman and gentlemen. Again, thank 
you all for your service. And, General Mattis, I am sure you 
are going to--knowing how most of us are wired, you are going 
to continue to serve either your community or this country in 
your own special way. So good luck with that.
    General Fraser, I think you know where I am probably going 
to talk about some CRAF stuff and, you know, dealing with our 
C-5s and C-17s. As you know, you responded to me in a 4 January 
letter saying that the C-5s were overflown their program or 
record by 29 percent, and the 17s by 21 percent. And I know in 
the letter and where we are in kind of the operations, some of 
that cargo doesn't quite fit this back in to where the area of 
conflict. You can't get those aircraft in there.
    But the point was raised also that in your letter you said 
there was some people unwilling or unable to execute the 
request for admissions. Do you have any specific examples of 
that?
    General Fraser. Sir, the request for the flying hour 
program, as we understand and have worked with the Services, is 
certainly built upon maintaining readiness. So when there are 
other calls for response in other areas, and understanding the 
threat situation, the types of loads that we are lifting, the 
CRAF partners are not able to either accept that threat area or 
be able to carry that type of load. Maybe it is outsized/
oversized-type cargo. And so, therefore, if the flying hour 
program is built upon readiness levels, doesn't take into 
account other crisis or other types of response, we are going 
to overfly those hours. So that is where we see some of that 
increase, but every opportunity that we can, we are ensuring 
that we make sure that we partner with our strategic CRAF 
partners and give them the contracts.
    Mr. Runyan. Because we keep pushing that, because I can say 
since 2001, we have had 13 of those partners fall off the face 
of actually executing that stuff, whether bankruptcy or just 
quit doing business. I mean, and whether you are talking about 
the merchant mariners and/or the CRAF program, that is a 
strategic asset that if we don't utilize it, it is not going to 
be there when we need it, and, again, costing us even more 
money to fly the gray tails and maintain them even longer down 
the road.
    That being said, if the type of aircraft that our CRAF 
partners have is a limiting factor, are there commercial 
aircraft out there that maybe we can have a discussion to kind 
of try to solve a little bit of this in the future, or is it 
just not in the commercial stockpile?
    General Fraser. Sir, based on a review of the threat areas 
in particular, they do not have defensive systems on them, and 
I would not be willing to put them at risk based on the threat. 
We do a thorough analysis, and in coordination with the theater 
in various locations that we are flying in, we have continued 
to expand bases. As the threat decreased, we opened up other 
airfields where we are now actually flying in commercial 
aircraft because of the security situation changing. It is in a 
positive direction, and therefore we have opened it up.
    We have not opened up passenger aircraft into Afghanistan, 
into the airfields, but cargo aircraft we are, and we continue 
to watch that very closely and in coordination with our CRAF 
partners.
    With respect to the business and it coming down, I would 
comment that we are working with the Executive Working Group 
and the CRAF partners. We have an ongoing study called CRAF II. 
There was a meeting last Friday with them as we laid out 
looking forward to the future what the business is looking like 
as we have come out of Iraq. We have seen changes. As we now 
come out of Afghanistan, we have seen that change. And so how 
do we posture ourselves to have the right balance of organic 
and commercial capabilities in the future? We will work that in 
partnership with them.
    Mr. Runyan. So in kind of in summary, it is more of a 
security issue than it is a cargo capacity issue?
    General Fraser. It has been a combination of security and 
oversized/outsized, sir. They don't have that capacity in the 
commercial fleet for oversized/outsized. That is where we have 
to use the C-5s and the C-17s.
    Mr. Runyan. Thank you very much.
    Yield back, Chairman.
    Mr. Wittman. Thank you, Mr. Runyan.
    We will go to Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    First, General Fraser, if you wouldn't mind copying me on 
the correspondence between you and Mr. Scott and Mr. Runyan on 
the CRAF stuff, I am interested in that, too. I think DOD spent 
about $244 million lately in foreign carriers as opposed to 
U.S. carriers.
    So, with that being said, just please keep me in the loop 
if you don't mind. CC me.
    General Fraser. Yes, sir.
    Mr. Hunter. Please. Thank you.
    General Mattis, it is an honor to be on this side of the 
table from you. You will always be my general. You were there 
in Fallujah. I remember sitting outside of the city with 2nd 
Battalion, 1st Marines, and we saw this lone LAV [Light Armored 
Vehicle], and we were like, who the hell is that guy? That is 
``Chaos.'' That was his call sign in Iraq. It was ``Chaos.'' 
And even sitting over here, if you told me to, I would go do 
bad things to bad people.
    So I just want to say thank you for your service. It is an 
honor to even be sitting here talking with you, and you will 
always have a special place in Marine Corps lore and Marine 
Corps history, and a true representative of what it means to be 
a Marine warfighting general. And we all thank you. And you 
saved a lot of lives, and you killed a lot of bad people, and 
we thank you for that.
    So, with that being said, I understand in the next few days 
we are going to release our high-value detainees from our 
Afghan jails to the Afghan justice system, and I just wanted to 
hear your thoughts on that, and if that is a wise move, if you 
recommended that, and what you think that means for the 
warfighter that is still there, still fighting every day.
    General Mattis. Thank you, Congressman.
    In this case I fully support it. Two reasons. First, Ashraf 
Ghani, who is in charge of that portfolio for the Afghan 
Government, very trusted, very knowledgeable, has identified 
clearly the legal authority they have to hold people in what 
you and I would call admin detention. They have a different 
term for it. Bottom line is they don't get released.
    There is also a process, dual key I would call it, where if 
they decide to release someone, and we think it is an enduring 
threat, then obviously we can go in and stop that. In other 
words, we work together, and it takes both eventually at the 
highest level, both sides, in this effort to hold on to them or 
to release them.
    So, I know they will not become a force protection threat 
because we will be able to keep them in, and they have got the 
legal authority to do so. So based on those two premises, I do 
support this. And that is a change from if I had been up here 
even as short as 2 months ago, where we were not certain we had 
the legal authority, and we had to work out the process to make 
certain that there was a reclama if they were going to release 
someone that we did not want released.
    That said, we released a number of these people back to 
their village elders. They signed for them, it is a ceremony, 
and so far we are doing very, very well, surprisingly well. But 
it is different category you are referring to, and I recognize 
that.
    Mr. Hunter. Okay. Thank you. That is reassuring.
    Lastly, let's just talk IEDs [improvised explosive device] 
for the next minute and 40 seconds. It is still an enduring 
threat. It is still the number one threat. We simply haven't 
been able to get our hands around how to fight, you know, 
fertilizer turned explosive. And I guess that is just how it 
is. We spend billions of dollars, have Ph.D.s working on this 
day and night. Our marines and soldiers and sailors are trained 
to go fight this, and yet it is still the number one threat.
    What do you think? What are the mistakes that we have made, 
what are we doing right, and what do we need to keep doing?
    General Mattis. It is a multifaceted campaign, as you know 
so well, of training, of technology, of scientists. I have 
talked to as many scientists as I can find. The electromagnetic 
spectrum is a big part of the problem, and it is so enormous, 
as you know, for ways to trigger one of these.
    We have ongoing efforts, improving efforts, I might add, 
with the Pakistanis here recently over the last 2 months. But 
ultimately I will tell you, sir, what we are going to have to 
do is find a way to prematurely detonate these so the time and 
place of detonation is no longer determined by the enemy. That 
is ultimately going to be our way that we turn this weapon 
against the enemy. It will not win the war for us, but you know 
what the casualty rate has been, and as much as it has 
declined, it is still the number one casualty inducer on us.
    So I think that getting the premature detonation is where 
we have to go, and we have got DARPA [Defense Advanced Research 
Projects Agency], we have got the Navy folks down at Dahlgren, 
again, every lab we can insight to get involved with this. We 
are working with it.
    Mr. Hunter. Thank you very much, Admiral, Generals. Thank 
you for your service
    Mr. Wittman. Thank you, Mr. Hunter.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Mattis, it seems a real concern I have on 
Afghanistan is the level of corruption and how I think it 
compromises, you know, not only the ability for the Afghan 
Government to have any type of capacity in terms of, you know, 
establishing governance over the country, but the military as 
well. I mean, all the institutions, it seems that corruption is 
so pervasive. In your view, are we making any gains on this 
problem?
    General Mattis. Sir, I know we are making gains. Whether 
those are transient, and whether those are sufficient, I don't 
know.
    It is a reciprocity-type society, and that is okay. We can 
deal with that. It is, as you pointed out, when it interrupts 
or prevents the provision of government services, when bribery 
is such a way of life that the poor people basically see that 
these chips are stacked against them.
    I would just say that it is really the strategic, biggest 
Achilles' heel we have. So we are working it. We have got a 
task force working it. We have got active measures under way. 
The officers are told, if you suspect someone is corrupt, you 
do not have to work with them. There is no requirement to work 
with someone that you find corrupt in the field. Get the word 
back up the chain of command. At one time, something as simple 
as that, they didn't realize they could just break off from 
that person.
    But you are dealing with a society, sir, that for decades 
has had no belief in tomorrow. And when you don't believe in 
tomorrow, you do whatever you can today to get your family 
ahead. And until we create more of an environment where there 
is hope for tomorrow, where there are jobs and government 
services are provided in a manner that you don't have to go the 
corrupt route, it is going to be a generational change, I 
think, sir.
    Mr. Coffman. The green-on-blue violence, Afghan soldiers 
killing U.S. military personnel and the coalition partners, 
ISAF [International Security Assistance Force] personnel, are 
those incidents--well, I assume they are down now because we 
have pulled back, it seems, in our interaction with the Afghan 
Security Forces. But it is critical for us to have that 
interaction in order to be able to move them forward. Can you 
comment on where we are on the green-on-blue violence?
    General Mattis. I can, sir. Thank you for that question. It 
goes to the very heart of trust.
    So far this year, one attack. Now, I did not get 
complacent. I think I know why it has gone down. It has to do 
with training, has to do with counterintelligence training we 
have given to the Afghans so they have ferreted out some of 
these people inside the ranks and caught them. And we have very 
good techniques for doing that.
    But I would tell you, if you went over there today and 
contrast it to when you were over there 2 years ago, you would 
probably find very little difference in what you saw as far as 
our troops interacting with their troops. We are very much 
involved with them, integrated with them. We are obviously 
taking what you would consider prudent measures in the field to 
protect ourselves. But at the same time they have lost more of 
their boys in green-on-green than we have lost on green-on-
blue. So we have had wholehearted support from the Afghan 
leadership in addressing this problem, and it appears to be 
paying off.
    Mr. Coffman. In terms of our drawdown--and maybe, General 
Fraser, this may be to you too. In terms of our drawdown as to 
the equipment, what equipment are we leaving behind? And out of 
the equipment that we are leaving behind, what will go to the 
Afghan military? And are we, in fact, categorically looking at 
equipment that will, in fact, be destroyed, weapons or 
equipment? General Mattis?
    General Mattis. Sir, if we have excess equipment, we will 
certainly look at leaving that behind. But if the Army or the 
Marines, the two Services with most of the gear over there, if 
they need it brought back, it is coming back. So it has got to 
be really excess if we leave it.
    But we are also, as you know, standing up the Afghan forces 
with equipment that is bought specifically for them. For 
example, the Light Armored Vehicle is one that is low-
maintenance-intensive; it is easy to maintain. So we are not 
going to leave them a complex system that becomes more of a 
burden.
    So we will outfit them. We will leave behind some gear. We 
will bring most of it home. And we would probably destroy or 
demilitarize those things just not worth bringing home.
    Will?
    General Fraser. Sir, just briefly, we are working very 
closely with the materiel recovery element that is on the 
ground. They have a deliberate process that General Mattis is 
talking about where they actually categorize that equipment. 
Once we have disposition orders, then we will either turn it 
over to the DLA [Defense Logistics Agency] to be destroyed, or 
it will be transferred, as General Mattis said, to the Afghans. 
It could be declared as excess defense articles. There is a 
separate process by which that would go through in coordination 
with State and countries who are looking for excess defense 
articles. And then there is the rest of that that we will be 
bringing home.
    So the processes, the procedures are in place, and we are 
confident that we have all the guidance we need.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    General Mattis, Admiral McRaven, General Fraser, thank you 
again so much for joining us today. General Mattis, we wish you 
Godspeed.
    And with no further business before the committee, the 
House Committee on Armed Services stands adjourned.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 6, 2013

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2013

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

         The Posture of the U.S. Central Command, U.S. Special

          Operations Command, and U.S. Transportation Command

                             March 6, 2013

    The House Armed Services Committee meets to receive 
testimony on the posture of U.S. Central, Special Operations, 
and Transportation Commands. Today, we have with us General 
James Mattis, Admiral William McRaven, and General William 
Fraser. Thank you for joining us today.
    The CENTCOM area of responsibility remains a critical focus 
of the U.S. military. Over the next year in Afghanistan, the 
United States will be withdrawing 34,000 troops, and the ANSF 
will be fully in the lead across Afghanistan for the first 
time. These major changes to the security context in 
Afghanistan--all of which will be occurring during the same 
time period--could present new forms of risk to U.S. interests 
in Afghanistan and the region. Likewise, the broader challenges 
within the CENTCOM area of responsibility--including the 
conflict in Syria, the nuclear ambitions of Iran, and the 
uncertain political transition in Egypt--continue to pose 
strategic risk to U.S. interests. However, in my view, among 
the greatest strategic risks within the Middle East remains the 
ongoing ambiguity associated with U.S. commitment to our 
regional allies--and the region itself.
    Additionally, I remain concerned about the threats posed by 
transnational terrorism. The threat from Al Qaeda is real. It 
is global, networked, and clandestine. U.S. Special Operations 
Command (SOCOM) and our Special Operations Forces play a 
critical role in counterterrorism, unconventional warfare, and 
countering weapons of mass destruction. SOCOM has achieved 
extraordinary integration with each of the Services, the U.S. 
interagency, and our international partners. However, an 
emphasis on direct action during the last 11 years of combat 
may have left our Special Operations Forces out of balance for 
a future that will increasingly require building partnership 
capacity and advisory and assistance efforts. Looking forward, 
our Special Operations Forces must remain flexible enough to 
counter the transnational terrorist threat with decisive force 
when warranted--but, at the same time, globally postured to 
prevent transnational terrorism from manifesting into 
operational and strategic threats--through international 
partnerships and regional alliances.
    Finally, TRANSCOM continues to execute the logistical 
requirements for ongoing U.S. military efforts across the 
globe. The challenges TRANSCOM faces continue to grow. As our 
military prepares to redeploy from Afghanistan and as we 
rebalance to the Asia-Pacific, we must remain ready to respond 
to contingencies elsewhere in the Middle East--and Africa. 
These operational necessities come as themilitary is being 
forced to shed force structure, curtail flying hours, and 
return ships to port--reducing the availability of the very 
lift capacity upon which TRANSCOM relies. This Committee has 
taken steps to mitigate these shortfalls, but much remains to 
be done.
    In short, CENTCOM, SOCOM, and TRANSCOM are executing vital 
military missions across the globe. We are extremely grateful 
for your service to our country. I look forward to your 
testimony.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

         The Posture of the U.S. Central Command, U.S. Special

          Operations Command, and U.S. Transportation Command

                             March 6, 2013

    I welcome our witnesses, General Mattis, Admiral McRaven, 
General Fraser. We thank you for your service and your great 
leadership in your three very important commands. It is 
appropriate that we have the three of you together because you 
have to work very, very closely together.
    As the chairman mentioned, CENTCOM continues to be our most 
important command facing the greatest challenges, number one, 
of course, being Afghanistan, where we still have troops in 
battle. And the transition over the course of the next couple 
of years is going to be critical. Look forward to hearing more 
from General Mattis, from all three of you, actually, about how 
that transition will go.
    But there are other threats in the CENTCOM region. 
Obviously, the instability in the Middle East remains, and the 
threat from Iran is also something that will continue to be a 
challenge, and we are curious any thoughts you have on how to 
contain that and what come out of the Syrian civil war as well.
    Admiral McRaven, we greatly appreciate everything the 
Special Operations Command has done. And, obviously, we are 
very aware of the work that has been done in Iraq and 
Afghanistan over the course of the last decade. Less well known 
is your presence in many other places trying to contain 
insurgencies, in many cases before they start.
    The relatively small footprint that you offer yields a huge 
return in a number of places to great success. In the 
Philippines, helping contain insurgencies there; our work with 
AMISOM in the Somalia area, working with partners in Ethiopia, 
Kenya, and Uganda, and Burundi, as well, has proven that a 
small-force, building-partner capacity working with the local 
population can make an enormous difference for a very small 
cost. Of course, you also have to include diplomacy and 
development pieces to make that work, but I think the 
partnerships that have been formed there have been incredibly 
valuable.
    Now, going forward, certainly, as the chairman mentioned, 
as we are drawing down in Afghanistan, as we have drawn down in 
Iraq, how do we reposition SOF to best meet the threat 
environment that is out there?
    And, General Fraser, the Transportation Command is 
absolutely critical. It is all about logistics. It is the part 
of fighting a battle and preparing for battle that most people 
don't know that much about, but it just doesn't happen if we 
don't get the troops and the equipment to where they need to 
go. It is a very complicated process. You do an excellent job; 
certainly have been, you know, very, very helpful in 
Afghanistan. And the challenge now as we transition out is you 
are the guy who has got to get all that stuff out of there in a 
logical way. So we are anxious to hear about that.
    Of course, overall, as the chairman mentioned up front, you 
all face, you know, budget challenges. You know, we had fairly 
substantial cuts in what we were expected to spend starting 
2011. Now we have sequestration kicking into to roughly double 
those cuts and to do so in a very unhelpful way, across the 
board, mindlessly, in a way that makes it very difficult to 
plan. In addition, we have the challenge of operating under a 
CR instead of with an appropriations bill. All of those things 
are going to make it that much more difficult to get the job 
done. We are anxious to hear about how you are meeting those 
challenges and what, hopefully, we can do to reduce them. 

[GRAPHIC] [TIFF OMITTED] T9956.001

[GRAPHIC] [TIFF OMITTED] T9956.002

[GRAPHIC] [TIFF OMITTED] T9956.003

[GRAPHIC] [TIFF OMITTED] T9956.004

[GRAPHIC] [TIFF OMITTED] T9956.005

[GRAPHIC] [TIFF OMITTED] T9956.006

[GRAPHIC] [TIFF OMITTED] T9956.007

[GRAPHIC] [TIFF OMITTED] T9956.008

[GRAPHIC] [TIFF OMITTED] T9956.009

[GRAPHIC] [TIFF OMITTED] T9956.010

[GRAPHIC] [TIFF OMITTED] T9956.011

[GRAPHIC] [TIFF OMITTED] T9956.012

[GRAPHIC] [TIFF OMITTED] T9956.013

[GRAPHIC] [TIFF OMITTED] T9956.014

[GRAPHIC] [TIFF OMITTED] T9956.015

[GRAPHIC] [TIFF OMITTED] T9956.016

[GRAPHIC] [TIFF OMITTED] T9956.017

[GRAPHIC] [TIFF OMITTED] T9956.018

[GRAPHIC] [TIFF OMITTED] T9956.019

[GRAPHIC] [TIFF OMITTED] T9956.020

[GRAPHIC] [TIFF OMITTED] T9956.021

[GRAPHIC] [TIFF OMITTED] T9956.022

[GRAPHIC] [TIFF OMITTED] T9956.023

[GRAPHIC] [TIFF OMITTED] T9956.024

[GRAPHIC] [TIFF OMITTED] T9956.025

[GRAPHIC] [TIFF OMITTED] T9956.026

[GRAPHIC] [TIFF OMITTED] T9956.027

[GRAPHIC] [TIFF OMITTED] T9956.028

[GRAPHIC] [TIFF OMITTED] T9956.029

[GRAPHIC] [TIFF OMITTED] T9956.030

[GRAPHIC] [TIFF OMITTED] T9956.031

[GRAPHIC] [TIFF OMITTED] T9956.032

[GRAPHIC] [TIFF OMITTED] T9956.033

[GRAPHIC] [TIFF OMITTED] T9956.034

[GRAPHIC] [TIFF OMITTED] T9956.035

[GRAPHIC] [TIFF OMITTED] T9956.036

[GRAPHIC] [TIFF OMITTED] T9956.037

[GRAPHIC] [TIFF OMITTED] T9956.038

[GRAPHIC] [TIFF OMITTED] T9956.039

[GRAPHIC] [TIFF OMITTED] T9956.040

[GRAPHIC] [TIFF OMITTED] T9956.041

[GRAPHIC] [TIFF OMITTED] T9956.042

[GRAPHIC] [TIFF OMITTED] T9956.043

[GRAPHIC] [TIFF OMITTED] T9956.044

[GRAPHIC] [TIFF OMITTED] T9956.045

[GRAPHIC] [TIFF OMITTED] T9956.046

[GRAPHIC] [TIFF OMITTED] T9956.047

[GRAPHIC] [TIFF OMITTED] T9956.048

[GRAPHIC] [TIFF OMITTED] T9956.049

[GRAPHIC] [TIFF OMITTED] T9956.050

[GRAPHIC] [TIFF OMITTED] T9956.051

[GRAPHIC] [TIFF OMITTED] T9956.052

[GRAPHIC] [TIFF OMITTED] T9956.053

[GRAPHIC] [TIFF OMITTED] T9956.054

[GRAPHIC] [TIFF OMITTED] T9956.055

[GRAPHIC] [TIFF OMITTED] T9956.056

[GRAPHIC] [TIFF OMITTED] T9956.057

[GRAPHIC] [TIFF OMITTED] T9956.058

[GRAPHIC] [TIFF OMITTED] T9956.059

[GRAPHIC] [TIFF OMITTED] T9956.060

[GRAPHIC] [TIFF OMITTED] T9956.061

[GRAPHIC] [TIFF OMITTED] T9956.062

[GRAPHIC] [TIFF OMITTED] T9956.063

[GRAPHIC] [TIFF OMITTED] T9956.064

[GRAPHIC] [TIFF OMITTED] T9956.065

[GRAPHIC] [TIFF OMITTED] T9956.066

[GRAPHIC] [TIFF OMITTED] T9956.067

[GRAPHIC] [TIFF OMITTED] T9956.068

[GRAPHIC] [TIFF OMITTED] T9956.069

[GRAPHIC] [TIFF OMITTED] T9956.070

[GRAPHIC] [TIFF OMITTED] T9956.071

[GRAPHIC] [TIFF OMITTED] T9956.072

[GRAPHIC] [TIFF OMITTED] T9956.073

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 6, 2013

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. GARAMENDI

    General Fraser. The passage of the ``Consolidated and Further 
Continuing Appropriations Act, 2013'' since the March 06, 2013 hearing 
has removed a portion of the uncertainties we are facing from 
continuously working under Continuing Resolutions and pending 
sequestration cuts. The National Defense Sealift Fund (NDSF) was funded 
to the FY2013 budget request and until recently was facing a 
sequestration reduction. We are pleased that Office of Secretary of 
Defense and the Navy had the flexibility to eliminate the NDSF cut, as 
it would have caused a reduction in the readiness and responsiveness of 
our organic fleet.
    Additionally, the Maritime Security Program (MSP), which falls 
under the Department of Transportation Maritime Administration, ensures 
the Department of Defense has access to militarily useful U.S. flagged 
merchant vessels to support the transportation of supplies to support 
our deployed forces. Under the recent budget resolution for FY2013, MSP 
is funded at the FY2012 appropriated level of $174 million, $12 million 
less than the authorized level, and will be reduced further by a 7.8% 
sequestration cut. The Maritime Administration will be unable to fully 
fund this program.
    The impact of the funding reductions to the commercial portion of 
our fleets could decrease the capability of USTRANSCOM to respond to 
the requirements of the Geographic Combatant Commanders. [See page 29.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    General Fraser. Afghanistan Helicopter (Rotary Wing) Program, 
contracted directly with the foreign carrier: Canadian Helicopters, 
Canada. CHC Global Operations, Canada. Vertical De Aviacion, Columbia.
    Thule Airlift (Fixed Wing Aircraft), contracted directly with the 
foreign carrier: Air Greenland, Greenland.
    International Airlift Subcontracted through CRAF Carriers: Volga 
Dnepr, Russia (subcontracted through Atlas Air). Polet, Russia 
(subcontracted through UPS). Silk Way, Azerbaijan (subcontracted 
through World Airways Inc.). [See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. During the SASC posture hearing on 5 March 2013, you 
stated that you want 13,600 troops to remain in Afghanistan following 
the end of the NATO mission on December 31, 2014. What would you 
envision should be the associated mission sets for a 13,600 troops 
presence in Afghanistan?
    General Mattis. During his State of the Union address, President 
Obama outlined two specific missions for U.S. forces in post-2014 
Afghanistan. First, the training and equipping of Afghan forces so that 
Afghanistan does not again slip into chaos; and secondly, a 
counterterrorism effort that allows us to pursue the remnants of Al 
Qaeda and its affiliates. I also consider our support of other U.S. 
Government agency efforts in Afghanistan an inherent and critical 
mission.
    Mr. McKeon. What value do you put on area weapons, such as the 
Sensor-Fused Weapon (SFW), in deterring enemy forces from considering 
massing military assets to attack our allied forces?
    General Mattis. Area weapons allow us to engage a large number of 
enemy assets assembled in one area with a limited number of munitions. 
This should provide some form of deterrent to an enemy planning to mass 
forces. Therefore, area weapons such as the SFW are valuable in 
deterring enemy forces from massing military assets.
    Mr. McKeon. Is it anticipated that area weapons would contribute in 
defending against hostile action by Iranian land and/or maritime forces 
should deterrence fail?
    General Mattis. Yes. Area weapons are effective against fielded 
forces including military personnel and armored vehicles. They would be 
one of the available options to defend against hostile actions. They 
would be less effective against maritime forces at sea but could be 
used against maritime forces in port.
    Mr. McKeon. Can you outline the current threats posed by the 
Haqqani network to our strategy in Afghanistan and Pakistan and the 
region? How do we expect that threat to morph as we withdraw our 
forces? How best can we mitigate this threat?
    General Mattis. The Haqqani Network, proportionately, remains the 
most lethal and cohesive insurgent group operating in Afghanistan. Its 
areas of operation and influence continue to expand outside of its 
traditionally defined operating areas, affecting the Transition and 
Afghan stability.
    As our retrograde in Afghanistan proceeds, we anticipate the 
Haqqani Network will attempt to exploit security vulnerabilities, 
particularly in Eastern Afghanistan. The Afghan National Security 
Forces (ANSF) and other targets perceived as vulnerable could fall 
victim to attacks; however, Kabul will be the primary operational 
effort. Absent sustained pressure and international enforcement of 
United Nations sanctions, the Haqqani Network will remain resilient in 
its Pakistani sanctuary. The Haqqani Network clearly understands the 
value of high-profile attacks that garner significant media attention, 
and will attempt to increase the frequency and lethality of attacks in 
key population centers as we draw down our forces. This network is 
directly linked to the majority of high-profile attacks in Kabul and 
eastern Afghanistan and responsible for numerous U.S casualties. The 
Haqqani Network has the closest relationship with Al Qaeda of any other 
militant group operating in Afghanistan or Pakistan.
    We are maintaining pressure on the Haqqani Network through the 
combination of persistent Combined Team operations and interagency and 
international partnerships, challenging the Haqqani Network's command 
and control and operational effectiveness. A security environment that 
is manageable by the Government of Afghanistan and its security forces 
will limit the ability of terrorists to use Afghan territory to plot, 
resource, and conduct terrorist attacks against the U.S. homeland, our 
interests, and the interests of our allies worldwide. Aggressive 
targeting and international partnerships are essential to limit the 
travel of senior leaders to the Gulf States for fundraising purposes.
    Mr. McKeon. What is the role of area versus unitary munitions in 
addressing this threat?
    General Mattis. Unitary munitions give precision deployment 
capability against a single point target. Area munitions allow the 
engagement of multiple targets across a defined area. This can include 
denying or disrupting the enemy's use of that area or destruction of 
enemy fielded forces and armored vehicles.
    Mr. McKeon. What capability does the SFW provide that other 
munitions in the U.S. inventory cannot in this environment? How does 
the SFW address the humanitarian concerns that have been raised about 
the use of other munitions?
    General Mattis. The SFW provides the ability to disable multiple 
armored vehicles with a limited number of aircraft sorties. In 
comparison, multiple missions with unitary weapons would be required to 
disable the same number of armored vehicles. Sensor Fuzed Weapons would 
address concerns regarding collateral damage or unnecessary human 
suffering by more directly targeting enemy vehicles versus personnel. 
Because the weapon is designed to disable a vehicle's motor, it is less 
likely to cause undue suffering to personnel in the open vs. 
indiscriminant use of cluster munitions or unitary munitions that miss 
their targets.
    Mr. McKeon. What type of consequences would you foresee if U.S. 
forces could rely only on unitary systems to defend against an Iranian 
ground or maritime attack? What costs in terms of protecting friendly 
forces, materiel, and dollars would be incurred?
    General Mattis. The consequences would be felt in three primary 
areas by U.S. forces. First, aircraft that attack from high altitude 
would be required to fly more missions across the target area because 
they would be unable to target as many enemy forces per mission as they 
would with cluster munitions. Second, aircraft that work in the low-
altitude environment, such as the A-10, which can carry large numbers 
of unitary munitions, would be exposed to the threat environment for a 
longer period of time. Finally, it would take longer to prepare the 
battle space in advance of U.S. backed ground forces taking the field 
of battle. Additionally, the ability to rapidly repel an advancing 
enemy ground force would be reduced in a troops-in-contact scenario.
    The exact cost would be difficult to pinpoint, but the primary 
factors involved would be the increased risk to U.S. aircraft, 
potentially high battlefield losses of U.S. troops, and a loss of 
popular support for an operation incurring high loss rates. While 
unitary munitions are extremely useful against a variety of targets, 
cluster munitions exists as a viable option to reduce battle losses.
    Mr. McKeon. What efforts have been undertaken and are anticipated 
to remove by 2018 munitions available to the Central Command that are 
prohibited by the 2008 Policy on Cluster Munitions and Unintended Harm 
to Civilians?
    General Mattis. We do not anticipate any difficulties meeting the 
requirements of the 2008 Policy on Cluster Munitions and Unintended 
Harm to Civilians. Cluster munitions are not identified as primary 
targeting weapon solutions in any of our plans although we do not rule 
out their use in a dynamic environment where they might be the most 
appropriate weapon for the target. A comprehensive search of our 
munitions database records indicates that only seven types of munitions 
out of a total of 44 covered by the policy are currently located within 
the CENTCOM Area of Responsibility (AOR) and our Service components 
will schedule retrograde of select munitions from theater as their 
parent military service priorities dictate.
    Mr. McKeon. What efforts have been undertaken and are anticipated 
to procure capabilities to mitigate shortfalls resulting from 
implementation of the 2008 policy? What further steps would be required 
if legislation were enacted requiring implementation of the 2008 policy 
prior to 2018?
    General Mattis. CENTCOM does not manage munitions acquisition. As 
capability documents are staffed for review, we follow the 2008 policy 
in providing input to the comment matrix, however the Service 
components drive procurement and would be in a better position to 
answer this question.
    Mr. McKeon. What is the expected impact on the Central Command's 
theater objectives and operational plans if these shortfalls are not 
mitigated?
    General Mattis. Failure to mitigate resourcing shortfalls would 
force us to accept a higher level of risk to the successful 
accomplishment of our objectives and missions. We will continue to 
prioritize our needs based on our most critical requirements as we 
balance our approach to work by, with and through our partners. While 
the effects of these shortfalls would negatively impact all of the 
Services and combatant commanders, it will arguably have the greatest 
operational impact in the CENTCOM Area of Responsibility (AOR) due to 
geography, the pace of ongoing combat operations and the likelihood of 
numerous contingencies. Certainly we can expect that those units 
required to address these emerging challenges will be less ready than 
in the past or will have less capability due to reduced readiness 
levels in training and equipping.
    Mr. McKeon. What are CENTCOM's current highest priority 
intelligence requirements? How well are these requirements being 
addressed? What is the current division of labor between theater-level 
assets and national-level assets? Please describe for both collection 
requirements as well as analytical support.
    General Mattis. [The information referred to is classified and is 
retained in the committee files.]
    Mr. McKeon. What are CENTCOM's key intelligence gaps?
    General Mattis. [The information referred to is classified and is 
retained in the committee files.]
    Mr. McKeon. How do you assess national intelligence support to 
CENTCOM? Please specifically discuss support from the Defense 
Intelligence Agency, the National Geospatial Intelligence Agency, the 
National Security Agency, the National Reconnaissance Office, as well 
as the rest of the Intelligence Community. Do you have any 
recommendations to improve support provided by these agencies?
    General Mattis. The Defense Intelligence Agency (DIA), the National 
Geospatial Intelligence Agency (NGA), the National Security Agency 
(NSA), the National Reconnaissance Office (NRO) and the rest of the 
Intelligence Community provide excellent support to CENTCOM. The 
majority of my Intelligence staff civilians are DIA employees and DIA 
provides a host of training environments for specialty areas of 
Intelligence, including Intelligence Collection Management, 
Intelligence Analysis and tailored courses for utilizing software tools 
developed by DIA. DIA also provides the Intelligence Collection Manager 
interface for CENTCOM with the Joint Staff and with elements of the 
Office of the Director of National Intelligence.
    NGA and NRO have highly proficient liaison officers embedded within 
my staff, with in-depth geospatial intelligence knowledge and advanced 
technical skills. Their ability to reach back to their parent 
organizations and rapidly support CENTCOM requirements has been a major 
asset in maintaining situational awareness across our region. Both 
organizations have proven very agile over the last five years in 
providing personnel that directly support my staff and forward elements 
in Iraq and Afghanistan.
    NSA support has also been excellent, with embedded liaison officers 
that rapidly turn our needs and requirements into collection. They are 
essential in providing exceptionally precise indications of potential 
hostile intent and Indications and Warning for our toughest problem 
sets in Iran, Syria and Afghanistan.
    Mr. McKeon. Please describe CENTCOM's current ISR needs and your 
most recent request for ISR allocation.
    General Mattis. [The information referred to is classified and is 
retained in the committee files.]
    Mr. McKeon. Please describe the value of HUMINT to CENTCOM
    General Mattis. HUMINT is a critical enabler. It plays a key role 
in ascertaining information in support of CENTCOM requirements and 
mission objectives. The ability of HUMINT to penetrate hard targets and 
access denied areas within the CENTCOM AOR and answer intelligence 
requirements (particularly those related to plans and intentions) are 
vital to the CENTCOM mission. HUMINT is uniquely valuable to CENTCOM in 
validating and complementing intelligence from other disciplines by 
providing information that is beyond the capabilities of technical 
sensors, and often incorporates the values and qualitative judgments of 
the source. HUMINT includes non-tangible information such as insights 
into adversary plans and intentions, deliberations and decisions, 
research and development goals and strategies, doctrine and leadership, 
and morale. HUMINT assets collect information that is not communicated 
electronically, such as troop movements conducted under radio silence; 
or equipment and facilities concealed or shielded from overhead or 
airborne imagery systems. This dedicated capability has been 
instrumental in the success of numerous CENTCOM operations.
    Mr. McKeon. Have CENTCOM's needs been fully incorporated and 
integrated into planning for the Defense Clandestine Service?
    General Mattis. Yes. CENTCOM requirements for Defense Clandestine 
Service (DCS) capabilities are fully captured in tasks to The Defense 
Intelligence Agency's (DIA) Directorate of Operations within the HUMINT 
Appendices to CENTCOM approved plans and orders. Defense HUMINT 
Enterprise councils and boards (of which DCS is a core member) also 
sufficiently detail combatant command HUMINT requirements.

    Mr. McKeon. What are SOCOM's current highest priority intelligence 
requirements? How well are these requirements being addressed? What is 
the current division of labor between theater-level assets and 
national-level assets? Please describe for both collection requirements 
as well as analytical support.
    Admiral McRaven. USSOCOM has four enduring priority intelligence 
requirements that directly support the commander's top strategic global 
security concerns, including 1) countering transnational violent 
extremist organizations, 2) regional instability and state aggression, 
3) threats to sovereignty that may threaten the stability of our 
interests and/or partner nations, and 4) WMD counterproliferation. In 
addition, USSOCOM supports the GCC's SOF-specific priority intelligence 
requirements in their respective theaters of operations, including 
countering violent extremist organizations, setting conditions for 
long-term stability, developing regional access, and building security 
force assistance capacity through partner-nation security initiatives.
    USSOCOM collection requirements are submitted at the national-
level. Our collection requirements are received from our component 
commands and from the commander's priority intelligence requirements. 
We do not task theater-level CCMDs assets. USSOCOM relies heavily on 
its deployed subcomponents, the other GCCs, and the greater IC to 
fulfill our collection needs. Therefore, requirements in theaters where 
greater theater and national collection resources are available are 
more likely to be addressed. USSOCOM as force provider does not have 
theater-level collection assets under its control. We provide SOF 
assets to the GCCs and the GCCs then allocate assets in theater to the 
TSOCs based on the commander's priorities.
    Analysis of collection done by USSOCOM intelligence professionals 
is focused on providing unique SOF-specific assessments. SOCOM depends 
heavily on GCC and national level analytic resources for all non SOF-
specific analysis.
    Mr. McKeon. What are SOCOM's key intelligence gaps?
    Admiral McRaven. USSOCOM intelligence gaps are captured under the 
DIA intelligence requirements process through multiple mission 
management boards conducted on a monthly basis. Additionally, SOCOM 
contributes to the DNI annual intelligence collection gaps discussions 
to address current and projected intelligence gaps and requirements. To 
fulfill its Intelligence Requirements, USSOCOM would greatly benefit 
from greater authorities in applying SOF intelligence assets against 
specific targets, networks, organizations, and entities; increased 
priority of USSOCOM requirements within the IC; and expanded/enhanced 
IC partner capabilities.
    Mr. McKeon. How do you assess national intelligence support to 
SOCOM? Please specifically discuss support from the Defense 
Intelligence Agency, the National Geospatial Intelligence Agency, the 
National Security Agency, the National Reconnaissance Office, as well 
as the rest of the Intelligence Community. Do you have any 
recommendations to improve support provided by these agencies?
    Admiral McRaven. National intelligence support to USSOCOM has been 
superb, and provides the commander with daily, relevant intelligence 
that informs the command of ongoing threats, regional instability, 
counterproliferation, and WMD issues. These assessments help shape the 
commander's critical decisions pertaining to SOF employment, 
deployment, and global activities. DIA, NGA, and NSA have full-time 
embedded analysts in the J2 who provide daily intelligence support to 
the Joint Intelligence Center (JIC). Additionally, the CIA, NRO, NGA, 
and NSA have dedicated senior representatives who provide valuable 
reach back to their parent organizations in support of SOF activities.
    Mr. McKeon. The present authorized funding ceiling for Section 1208 
CT authorities is $50 million. In your testimony you say that this 
authority, ``remains critical to Special Operations,'' and that, 
``demand for 1208 authority has increased.''
    a. How much of this authority have you used this year?
    b. Is the present amount of $50 million sufficient?
    c. Given today's tight fiscal environment, is it too much? How 
would a reduction in this funding impact your operations?
    Admiral McRaven. BLUF: $50 million is adequate to cover anticipated 
FY2013 requirements. USSOCOM continues to assess the need for an 
increase beyond the current $50 million authority. Discussion: As of 22 
Mar 2013, USSOCOM has $43.5 million committed to support ongoing 
operations. Additional requirements currently in staffing to support 
one ongoing operation and two emerging operations will bring the total 
amount committed to $47.9 million . A separate additional operational 
requirement is under development, and if approved during FY2013, is 
anticipated to fully commit the remainder of the $50 million authority. 
While most or all of the FY2013 $50 million authority is likely to be 
committed, historical execution trends indicate that USSOCOM will only 
expend roughly 82% of that amount. Since 1208's inception in 2005, 
USSOCOM's execution shows a year-over-year upward trend as the program 
and authority matures. Operational planning that spans up to 14 
distinct operations requires some flexibility in authority versus 
actual execution. USSOCOM, in conjunction with the GCCs, TSOCs and Task 
Forces is assessing: a) whether or not the ongoing FY2013 operations 
are expected to continue into FY2014 and beyond at their current level, 
and b) the potential for additional emerging future requirements. The 
preliminary assessment is that $50 million is required (not too much 
authority), and that an increase (amount TBD) would be prudent to avoid 
the potential to negatively impact future operations.

    Historical Authority, Programs and Execution of 1208 since 
inception in 2005.


----------------------------------------------------------------------------------------------------------------
     ($M)        FY 2005    FY 2006    FY 2007    FY 2008    FY 2009    FY 2010    FY 2011    FY 2012   FY 2013*
----------------------------------------------------------------------------------------------------------------
Authority       $25.0      $25.0      $25.0      $25.0      $35.0      $40.0      $45.0      $50.0      $50.0
----------------------------------------------------------------------------------------------------------------
Approved        $ 0.4      $19.4      $22.6      $19.6      $24.7      $38.6      $34.6      $43.6      $50.0
 Program
----------------------------------------------------------------------------------------------------------------
Obligations     $ 0.3      $ 7.5      $19.6      $11.5      $15.1      $27.1      $24.6      $33.1      $41.2
----------------------------------------------------------------------------------------------------------------
Number of       1          8          10         11         11         12         10         10         14
 Operations
----------------------------------------------------------------------------------------------------------------


    Mr. McKeon. We understand that SOCOM has been working to have its 
own Special Operations security force assistance authority--in addition 
to those SFA authorities that are already available to your forces.
    a. Can you provide us with more detail on this requirement? Why are 
current authorities NOT satisfying your needs? What are the legal 
limitations that constrain you?
    b. What is the State Department's opinion of this initiative?
    c. What do the Geographic Combatant Commanders say about this 
initiative?
    d. Do you expect to have OSD and OMB support for this initiative?
    Admiral McRaven. [The information was not available at the time of 
printing.]
    Mr. McKeon. What changes if any would you recommend to Title 10 
Section 167--the foundational statutory authority for U.S. Special 
Operations Command?
    a. Are there areas that require our attention more so than others? 
Perhaps personnel issues, such as the management of Professional 
Military Education for Special Operations Forces? Do you require 
modifications to your personnel authorities so that you are more 
Service-like, as an example, so that you have more of a say in the 
careers of our Special Operations Forces?
    Admiral McRaven. At this time we do not intend to recommend any 
revisions to 10 USC 167.
    Mr. McKeon. Can you outline the current threats posed by the 
Haqqani network to our strategy in Afghanistan and Pakistan and the 
region? How do we expect that threat to morph as we withdraw our 
forces? How best can we mitigate this threat?
    Admiral McRaven. The Haqqani Network's (HQN) goal is to degrade 
security and the effectiveness of GIRoA through harassing and 
persistent attacks in Southeastern Afghanistan, and to use these 
corridors to project violence into Kabul by launching spectacular 
attacks there. The HQN hopes to translate successful attacks into 
continued support that draws money, materials and manpower from the 
Taliban and the international jihadist community. The loss of their 
operations chief, Baddruddin Haqqani, and increased security in Kabul 
have diminished the number and frequency of successful spectacular 
attacks conducted by the network. However, their intent and resources 
remain intact.
    As the U.S. withdraws forces, HQN may benefit from degraded GIRoA/
Coalition security in the HQN dominated areas of Paktika, Paktya, and 
Khowst as well as areas where they have expanded influence such as 
Logar and Wardak. Continuing to disrupt HQN leadership such as Haji 
Mali Khan, who could augment the network's capabilities, will help 
mitigate the threat.
    Mr. McKeon. Your forces just like all of our military forces are 
beholden to the Leahy Amendment that prohibits U.S. military assistance 
to foreign military units that violate human rights.
    a. What changes to this human rights policy would you propose?
    Admiral McRaven. While I certainly appreciate the opportunity to 
answer this question directly to members of the HASC, I want to 
emphasize that I am only one of the seven Combatant Commanders who must 
operate on a regular basis in accordance with the Leahy vetting laws. 
Within the Department we are looking ways to make human rights vetting 
more effective and more consistent with the goals of the legislation. 
The Department has assembled a working group to accomplish this task 
and all the Global Combatant Commanders and the Special Operations 
Command support this effort.
    With that being said, I want to underscore several important 
points:

        1.   I fully concur with the decision that there must be 
        appropriate human rights vetting for our engagement activities 
        and that we are doing this according to the law and the policy.
        2.   In my opinion, the concept of ``poison-person-poison-
        unit'' may unnecessarily restrict U.S. Forces from engaging 
        with units that are beneficial to U.S. interests.
        3.   In my opinion, Ambassadors ought to have significant input 
        in the decision on whether or not to engage with a particular 
        unit.
        4.   Allowing limited human rights and rule-of-law training for 
        units and personnel considered trained due to violations of 
        human rights, particularly when there is the political will 
        within the country's leadership to change, could be a positive 
        first step in improving conditions in that country.
    Mr. McKeon. Women have been very active in U.S. Special Operations 
Command and across the globe--working on the ground in Afghanistan as 
part of Cultural Engagement Teams, filling critical Civil-Military 
roles in Africa and the Pacific area, even flying Air Force Special 
Operations aircraft.
    a. Can you outline how the new Department of Defense policy will 
impact your force? What concerns do you have?
    b. How will you ensure that standards are not lowered?
    c. Will there be a cultural challenge within your force?
    d. Do you expect to seek any waivers or exceptions to the policy?
    Admiral McRaven. a) The new Department of Defense policy will 
enable SOF elements to be more effective in conducting operations 
worldwide. We regularly augment tactical action units with women in a 
wide spectrum of operations and I foresee a continuing need to employ 
women in our missions. In order to properly incorporate women, USSOCOM 
will conduct an in-depth analysis on the impacts of integrating women 
to include ensuring all personnel, men and women, are provided the 
opportunities to succeed while still maintaining the high standards 
that are bedrock to our success.
    b) We will continue to maintain the highest standards by ensuring 
our occupational standards are related directly to operational 
requirements. We believe the standards are currently well-linked to 
requirements and will validate them with a detailed analysis throughout 
the SOF enterprise. In addition, we are commissioning an un-biased, 
third party to review to ensure they remain gender-neutral and reflect 
operational requirements.
    c) Women have served and continue to perform a vital role in SOF. 
USSOCOM will address any lingering cultural challenges as part of the 
independent study by analyzing the impacts of the psycho-social-
behavioral effects of women incorporated into small teams. We have the 
highest expectations for our Force and I'll ensure they uphold the 
requirement to treat any women as professional, skilled, co-equal 
teammates.
    d) We will not make any decisions until the completion of the 
detailed studies. Once we have gathered the data and are certain of the 
facts, we will develop a course of action and inform the relevant 
parties.

    Mr. McKeon. As a component of the Northern Distribution Network 
(NDN), Azerbaijan provides ground and naval transit for roughly 40 
percent of the International Security Assistance Force (ISAF) 
coalition's supplies bound for Afghanistan. Azerbaijan has extended 
important over-flight clearance, landing and refueling operations for 
U.S. and NATO flights to support ISAF. In 2012, more than 150 
aeromedical evacuation flights of U.S. Air Mobility Command were flown 
over Azerbaijan, rushing more than 2,200 patients to a higher level of 
medical care. How do you assess current U.S.-Azerbaijan military-to-
military relations, specifically in terms of supporting our troops in 
Afghanistan? Given that NDN passing through Azerbaijan and Georgia is 
more secure and stable route in comparison with Pakistan route do you 
plan to use it for retrograding U.S. troops and equipment from 
Afghanistan as we move towards 2014?
    General Fraser. The U.S.-Azerbaijan defense relationship is 
strong--but still has room to grow. USTRANSCOM continues to build on 
existing cooperation and engage in regular consultations at high levels 
with Azerbaijani counterparts to identify areas where we can strengthen 
our cooperation and partnership. Azerbaijan is part of a key transit 
corridor which TRANSCOM is incorporating into its retrograde 
operations. Azerbaijan's willingness to build wash racks and make other 
infrastructure improvements to support multimodal operations in Baku is 
illustrative of the level of cooperation that Azerbaijan and TRANSCOM 
enjoy. Since April 2012, approximately 600 short tons of cargo have 
retrograded through Azerbaijan bound for locations in Europe and 540 
short tons of cargo has returned to the U.S.. Azerbaijan is a stable, 
reliable partner and TRANSCOM will continue to partner with Azerbaijan 
until 2014 and beyond. There are no plans to move troops through 
Azerbaijan.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. ANDREWS

    Mr. Andrews. TRANSCOM manages the Transportation Working Capital 
Fund, which supports airlift services. Each of the Services and 
agencies bear some of the costs to fly missions and support the Air 
Mobility Command's budgeted flying hour program. Working Capital Fund 
policies require the Services to transfer funds about 2 years before 
the actual missions are flown. When TRANSCOM overflies its flying hour 
program--which it has for the past several years--what happens to the 
excess funds paid by the Services and the agencies? Who in TRANSCOM 
controls the operational tempo of Air Mobility Command aircraft in this 
instance?
    General Fraser. Working Capital Fund rates are set 2 years in 
advance of actual execution. USTRANSCOM bills Services and Agencies 
(customers) for missions as they are flown. The Working Capital Fund 
policy dictates that any operational gains/losses are returned to 
customers in the form of lower/higher rates two years out. In the case 
of Air Mobility Command (AMC), these gains/losses are put toward the 
Airlift Readiness Account.
    The Services and Agencies and world events drive the operational 
tempo at AMC.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. The Civil Reserve Air Fleet augments military 
aircraft, creating a larger transport network that we can call on as 
needed. The CRAF program has been activated during two major 
contingency operations and has provided critical supplemental airlift 
services to the Department of Defense. Even when CRAF is not activated, 
its members provide direct support to the U.S. military in day-to-day 
operations.
    In light of a shrinking defense budget and withdrawal from 
Afghanistan under way, what is TRANSCOM's plan to keep the CRAF program 
viable?
    General Fraser. The Air Mobility Command is in the final phase of a 
two-phase post Operation ENDURING FREEDOM CRAF study. This expansive 
body of work will assess the near-term health and future viability of 
the CRAF program. Upon the study's conclusion, we will have formulated 
the recommendations for the most effective methodology for 
restructuring policy, practices, and procedures that most accurately 
reflect the changing business environment. We have integrated our 
industry partners throughout this process to fully vet their concerns, 
ensuring we maintain a collaborative approach. Furthermore, we've been 
proactive by providing our industry partners requirements and forecasts 
of the drawdown period via semi-annual Executive Working Groups. 
Finally, with the creation of the Enterprise Readiness Center, we seek 
to leverage new business for the future health of the Defense 
Transportation System.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. General, I continue to be concerned about the 
capabilities of our bases to withstand a cyberattack directed against 
outside supporting infrastructure, such as the electrical grid. Last 
year you testified that you assessed both the more modern enduring 
bases as well as the tactical ones to ensure they could continue to 
operate and that you were satisfied that the proper mitigation networks 
and generators were available if needed. Can you update us on the 
progress that has been made in evaluating the ability of our bases 
within USCENTCOM to operate and recover in the event of such an attack, 
based on the increased advanced persistent threat environment, and also 
specifically focus on the linkages and integration of USCYBERCOM to 
support your cyber efforts under your command?
    General Mattis. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Langevin. General, is operational energy a priority? If so, 
why? And, can you please describe what actions you are taking in 
CENTCOM to reduce overall energy consumption in order to extend combat 
capability?
    General Mattis. Yes. Forces currently operating in the CENTCOM Area 
of Responsibility (AOR) consume over 3 million gallons of fuel per day 
with recent consumption as high as 5 million gallons of fuel per day. 
Satisfying that demand has required immense logistical support, 
susceptible to attack. It is the CENTCOM policy to shape its use of 
operational energy effectively as a strategic advantage, improving our 
operational capability and effectiveness by increasing operational 
energy performance and efficiency. To date, we have made great strides 
ensuring increased efficiencies and improved combat effectiveness by 
focusing on the development of policies, process improvements, and 
incorporation of energy efficient technologies in camp facilities, 
ground vehicles, and ground and aviation operations.
    Mr. Langevin. General, does a requirement for persistent 
surveillance and integrated fire control still persist in the CENTCOM 
Area of Responsibility (AOR)?
    General Mattis. Yes. CENTCOM forces and coalition partners will 
have only minimal time to react to missile launches in the Arabian 
Gulf. Rapid identification, verification, geolocation, and kinetic 
targeting of such threats are a must.
    Mr. Langevin. General, what would the addition of a persistent 
surveillance and integrated fire control orbit add to CENTCOM's ability 
to address cruise missile and surface moving threats to the Fifth Fleet 
and missile defense assets in the region?
    General Mattis. Persistent surveillance systems such as the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor (JLENS), 
specifically designed for missile detection and tracking, would help to 
counter threats such as those posed to U.S. Forces in the Gulf. 
However, JLENS is not currently a program of record and is still in 
testing. If this system does become available for worldwide operational 
use, JLENS will offer persistent and multi-sensor capabilities 
optimized for point area defense. The fact that JLENS is tethered will 
prove a limitation requiring substantial planning and de-confliction to 
overcome the impact to air navigation, especially in nations who only 
grant the U.S. limited use of their airspace.

    Mr. Langevin. Admiral, you have commented on the need to create a 
globally networked force of international partners and allies that 
could rapidly respond to and address regional challenges. Your command 
is promoting a concept of regional SOF coordination centers designed to 
promote regional SOF partnering, similar to the NATO SOF Headquarters 
in Mons, Belgium. Can you comment on this proposal, and HOW you intend 
to accomplish this? Given such a strong regional emphasis would require 
engagements and commitments with other countries broader than U.S. 
Special Operations Command, how has the Department of State reacted to 
your proposals? How have the Geographic Combatant Commanders reacted? 
And how would you propose paying for such a commitment?
    Admiral McRaven. [The information was not available at the time of 
printing.]

    Mr. Langevin. General, the Pakistan Ground Lines of Communication 
(PAK GLOC), when open, remains the quickest and most cost-effective 
route (i.e. cheapest) for surface transportation into Afghanistan. As 
we are all aware ground transportation through Pakistan was curtailed 
in November 2011, and then in early July 2012 the PAK GLOC was reopened 
after extensive negotiations. The reliability of the PAK GLOC to remain 
open is questionable and linked to any potential future disagreements 
with the U.S. or NATO. Can you speak to the importance of Northern 
Distribution Network (NDN) and how USTRANSCOM is posturing to support 
operations as we bring our forces home after many years of war?
    General Fraser. The NDN is an instrumental piece of the Operation 
ENDURING FREEDOM (OEF) Distribution Enterprise. During the closure of 
the PAKGLOC and subsequent negotiations of its reopening, the NDN was a 
critical means of getting supplies and equipment into Afghanistan. 
Because of these routes, as well as multimodal and air-direct options, 
U.S. Central Command (USCENTCOM) saw no operational impact resulting 
from the closure of the PAKGLOC. Maintaining a balance among our 
various distribution routes continues to be a focus of USTRANSCOM, 
reducing risk and increasing flexibility in our support of the 
warfighter.
    As the Distribution Process Owner, USTRANSCOM will be a part of all 
planning efforts in conjunction with USCENTCOM to redeploy personnel 
and equipment from OEF to ensure transportation feasibility. 
Maintaining a balanced distribution network ensures continuity of the 
transportation enterprise and avoids any single point of failure, 
enabling the redeployment of OEF forces and the retrograde of OEF 
materiel within the prescribed timelines.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. TURNER

    Mr. Turner. In 2006 General James Jones (then the Supreme Allied 
Commander of Europe) stated that ``the Achilles' heel of Afghanistan is 
the narcotics problem. The uncontrolled rise of the spread of 
narcotics, the business that it brings in, the money that it generates 
is being used to fund the insurgency, the criminal elements, anything 
to bring chaos and disorder.'' When discussed in previous hearings, you 
indicated that ``DOD supports capacity building within the 
Counternarcotics Police-Afghanistan and specialized units such as the 
DEA-sponsored National Interdiction and Special Investigative Units.''
    This 2012 UNODC (The United Nations Office of Drugs and Crime) 
report shows that the past 5 years have produced the largest crops in 
decades. According to the study, the dropoff in 2010 is largely 
attributed to plant blight that reduced the annual yield.
    Given the fact that narcotics production actually increased during 
our surge of forces, do you believe that the Afghan Army will be able 
to effectively conduct counternarcotic operations? What do you expect 
to happen when we further reduce our forces? Can we truly claim success 
if we leave the nation in this condition?
    General Mattis. I agree that the illicit narcotics problem remains 
one of the greatest challenges to our future success in Afghanistan. 
Secretary Panetta, just prior to leaving as Secretary of Defense, 
endorsed a Commander ISAF request to identify counternarcotics as a 
Department of Defense enduring priority for Afghanistan after the 2014 
transition.
    In response to your concerns, the Afghan Army does not have a 
counternarcotics mission. Afghan drug laws are enforced by the 
Counternarcotics Police of Afghanistan, a component of the Ministry of 
Interior. In the past, the Afghan Army has occasionally provided 
security for counternarcotics police operations. As we further reduce 
military forces, our U.S. Government law enforcement partners will lose 
much of the security umbrella U.S. and Coalition military forces 
provide and will have less freedom of movement within Afghanistan. This 
will restrict U.S. law enforcement partnered activities with the Afghan 
counternarcotics police.
    Success in Afghanistan is ultimately an Afghan responsibility. We 
have trained, equipped, and mentored their forces to a level which we 
assess can provide the environment for a secure and stable Afghanistan. 
They must have the resolve to do so.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. SHUSTER

    Mr. Shuster. Air Mobility Command maintains a list of about 136 
companies that are approved to transport military cargo. However, only 
about 30 companies on this list are CRAF participants; the rest are 
freight forwarders and non-CRAF carriers. Despite stated and well-known 
polices and regulations to use CRAF carriers, TRANSCOM has repeatedly 
allowed DOD to contract with these other companies
    Please explain the list of Approved Air Carriers. Who are these 
companies? How do they get on this list? How do you use this list?
    How can TRANSCOM ignore stated policy--from a Department of Defense 
Instruction and United States Code--to assign missions that transport 
military cargo to non-CRAF carriers?
    General Fraser. The referenced list, Approved Air Carriers, is 
comprised of transportation service providers which provide 
transportation partly or wholly via air. Air tenders and Air 
Transportation Service Provider Rules (Section F of the Military 
Freight Traffic Unified Rules Publication-1 (MFTURP-1)) are managed by 
AMC. Companies apply for ``DOD-Approved Status'' through a process 
outlined in the MFTURP-1. As long as companies meet the requirements of 
the MFTURP-1, air transportation providers may include air freight 
forwarders and air taxis as well as conventional air freight carriers 
operating under Federal Aviation Administration rules. Once approved, 
these domestic air carriers are given access to the Global Freight 
Management (GFM) system where they can submit tenders (rates) based on 
their approved service category (air carrier, motor carrier, rail, 
etc).
    The process outlined in the MFTURP-1 is used to determine which 
transportation service providers are certified and governs the 
validation process by which transportation service providers become 
DOD-approved air carriers listed in the GFM system. Transportation 
officers use the GFM system to choose the transportation service 
providers for their domestic tender requirements. Business conducted 
through the GFM system is not subject to the requirements of the Fly 
America and Fly CRAF acts. Therefore, customers are able to utilize the 
additional non-CRAF transportation service providers for air delivery 
services.
    Air Mobility Command manages the movement of DOD airlift missions 
using a combination of organic and commercial airlift. Commercial 
airlift missions are acquired through Federal Acquisition Regulation 
based contracts.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. It has been said that Al Qaeda's strategy is to 
draw the United States into an extended global conflict that validates 
the narrative that the United States is permanently at war with Islam. 
What are we doing to counter this dangerous narrative against the 
United States and our allies? Are we making any progress in this area 
and if so, how are you measuring success? Do you have sufficient tools 
and authorities to wage this battle of the narrative?
    General Mattis. We are working hard with our interagency and 
international partners to counter this very dangerous narrative. 
CENTCOM is conducting ground-breaking, online activities to undermine 
Al Qaeda's narrative throughout our Area of Responsibility (AOR) in 
order to reduce recruiting, fund-raising, and the spread of its 
ideology. The idea that the West is at War with Islam is a complicated 
milieu of supporting narratives that effectively draw regional 
audiences to the conclusion that U.S. policy toward the region serves 
only Western interests. Deconstructing and defeating this multi-faceted 
narrative requires a multi-faceted approach which the USG must address 
holistically. CENTCOM and U.S. Special Operations Command (SOCOM) 
activities designed to counter the Al Qaeda narrative have established 
a digital footprint in the AORs Internet information environment to 
provide focused credible information that counters and undermines Al 
Qaeda's violent jihad ideology and calls to violence. CENTCOM also has 
programs that find, fix, and degrade the credibility of Al Qaeda 
operatives that are promoting Al Qaeda in the mainstream Internet 
environment. Additionally, CENTCOM is working in close collaboration 
with the Center for Strategic Counterterror Communications, Department 
of State's Near Eastern Affairs and South and Central Asian Bureau, and 
Other Governmental Organizations to synchronize and coordinate these 
messaging activities.
    We assess that we are making progress, albeit slowly, to degrade 
the core tenets of Al-Qaeda's narrative. We assess that we are seeing a 
steady degradation in popular acceptance of the Al Qaeda brand and 
violent jihad ideology. Programmatically, we apply industry best 
practice to measure the effectiveness of each of our programs and then 
look to larger-scale assessments to determine their holistic 
effectiveness. On a program-by-program basis, we assess monthly changes 
in sentiment toward key topics within the Internet information 
environment in our AOR as well as other metrics such as growth of 
viewership, audience interaction, viral spread of our online content 
and qualitative assessments of our online interactions where we have a 
digital footprint.
    We have the tools sufficient for the task but they are 
underdeveloped and limited in breadth. These types of operations are 
habitually underfunded, slowing their maturation and growth 
dramatically. As our military footprint within the AOR continues to 
shrink, programs like these become more and more important to CENTCOM 
to meet these and similar tasks. With your support, we can continue to 
develop and mature our counterterror programs and more effectively 
fight this battle of the narrative with our partners.
    Ms. Shea-Porter. How do we ensure ANA/ANP forces can counter the 
Taliban forces without ISAF assistance, when only one in 23 ANA kandaks 
(battalions) can currently operate independently?
    General Mattis. The operational effectiveness of the ANSF continues 
a general upward trend and they are performing well. They have fought 
hard and are holding their own. Afghan forces are increasingly 
partnering and leading offensive operations. The ANSF are now 
unilaterally conducting over 80% of the total operations and are 
leading roughly 85% of total operations. Over 87% of the population is 
now under Afghan security. Sizewise, the ANSF has reached their object 
level of 352,000. The focus of the training mission now is on the 
quality of the force, developing the right balance of seniority, 
skills, and specializations that are vital to their long-term 
sustainability and success. Although ANSF resources will be challenged 
once U.S. and Coalition forces have withdrawn, I do believe they will 
be sufficient to defeat the Taliban.
    Ms. Shea-Porter. Is operational energy a priority? If so, why? And, 
can you please describe what actions you are taking in CENTCOM to 
reduce overall energy consumption in order to extend combat capability?
    How do you incentivize the military to reduce energy consumption? 
And, what renewable energy technologies have been effectively employed 
in CENTCOM and what is the return on investment?
    What achievements have you made in the CENTCOM AOR to reduce 
operational energy? What is your biggest energy challenge? And, how do 
you define energy security in the context of the COCOM?
    General Mattis. Yes. Forces currently operating in the CENTCOM Area 
of Responsibility (AOR) consume over 3 million gallons of fuel per day 
(1.4 million gallons of fuel per day in Afghanistan). Our operational 
energy policy and efforts fully nest with our Theater Campaign Plan by 
enabling the conduct of operations necessary to achieve our 
intermediate military objectives, thus establishing the conditions for 
regional security, stability, and prosperity.
    I have challenged commanders at all levels throughout the CENTCOM 
AOR to develop and implement operational energy programs focused on 
reducing energy demand while maintaining or increasing operational 
effectiveness. I have also charged commanders to push for the rapid 
fielding of emerging technologies that have proven methods to reduce 
energy demand, to include proven alternative energy technologies. 
CENTCOM has employed several renewable technologies in the AOR such as 
solar powered light carts and street lighting along with the Ground 
Renewable Expeditionary Energy Network System--a portable hybrid 
photovoltaic/rechargeable battery power system capable of providing up 
to 300 watts of continuous power.
    Current operational energy includes centralizing power plants on 
bases, insulating tents with energy-saving liners and the replacement 
of metal halide light fixtures with light emitting diode fixtures in 
gyms, just to name a few. Our biggest energy challenge remains 
harnessed to fuel which is our most valued commodity and is the most 
difficult to move, store, and distribute. In particular, getting energy 
to our forward operating bases places an incredible demand on our 
forces. And finally, energy security means a reliable, secure, and 
affordable supply of energy for CENTCOM's missions, today and in the 
future.
    Ms. Shea-Porter. How do we encourage Pakistani involvement in 
efforts to deter Taliban aggression and encourage diplomatic solutions?
    General Mattis. We continue to encourage Pakistan to deter Taliban 
aggression by providing much needed security assistance to their 
military forces. This security assistance has played a critical role in 
enhancing the Pakistan military's ability to develop more effective 
counterinsurgency and counterterrorism capabilities. Diplomatic 
solutions are hampered though because the Pakistanis are under extreme 
pressure by the violent extremist organizations (VEOs) that continue to 
target government entities and citizens within their borders. They've 
had devastating losses of life in VEO attacks that occur almost daily. 
However, Pakistan understands the importance of regional security and 
thus, the importance of working with the Government of the Islamic 
Republic of Afghanistan (GIRoA) and the United States.
    Through this tri-lateral relationship, there's been some success in 
finding diplomatic solutions toward ending the reign of terror that is 
being prosecuted by the numerous VEOs along the borders of Pakistan and 
Afghanistan. Pakistani leaders have publicly called on the Taliban to 
participate in peace negotiations. In addition, Pakistan also 
participates in the U.S.-Afghanistan-Pakistan Core Group and two sub-
working groups to facilitate a reconciliation process. We must continue 
to encourage Pakistan to engage with us and GIRoA in order to further 
advance diplomatic solutions.

    Ms. Shea-Porter. How do we ensure ANA/ANP forces can counter the 
Taliban forces without ISAF assistance, when only one in 23 ANA kandaks 
(battalions) can currently operate independently?
    Admiral McRaven. Certainly challenges remain for both the Afghan 
government and its supporting security architecture. However, building 
an effective security apparatus requires time and enduring advisory and 
financial support. GEN Dunford has implemented a sound plan to ensure a 
smooth security transition in 2014. One supporting aspect of this plan, 
designed to provide time for the ANA and ANP to evolve leverages Afghan 
Special Operations Forces and the Afghan Local Police (ALP) Program. 
This covering force approach maintains pressure on insurgent networks 
and simultaneously enables local communities to address their unique 
security concerns.
    This covering force approach is working; improving security for an 
estimated 17% of the Afghan population (5 million). Today ALP are 
21,346 strong and projected to continue growing after transition to an 
Afghan Government goal of 45K. Afghan National Security Forces (ANSF) 
have been successful in defending their communities against insurgent 
attacks 88% of the time. The layered support of Afghan special 
operations elements, time and space combined with the efforts of the 
ANA and ANP will continue to evolve, enabling relative stability in the 
post-transitional environment.
    Ms. Shea-Porter. It has been said that Al Qaeda's strategy is to 
draw the United States into an extended global conflict that validates 
the narrative that the United States is permanently at war with Islam. 
What are we doing to counter this dangerous narrative against the 
United States and our allies? Are we making any progress in this area 
and if so, how are you measuring success? Do you have sufficient tools 
and authorities to wage this battle of the narrative?
    Admiral McRaven. SOCOM, in conjunction with the Geographic 
Combatant Commands (GCC) and Theater Special Operations Commands (TSOC) 
has a variety of influence programs to counter Al Qaeda's narrative. 
The Trans-Regional MISO Program (TRMP) is one of SOCOM's priority 
influence programs to counter violent extremist (CVE) ideology around 
the globe. The TRMP is nested with the objectives in Campaign Plan 
7500, DOD's global plan to counter terrorism and violent extremism. The 
program provides guidance and authorities to GCCs to execute MISO in 
support of their CT operations in their AORs, as well as support 
partner nation MISO activities that align with U.S. objectives. Our 
primary technique in countering this narrative is not to directly 
address it (and thus give it credibility), but rather to isolate and 
discredit Al Qaeda in the eyes of their intended audience, thus 
nullifying their message. At the same time, SOCOM's trans-regional MISO 
efforts emphasize the host nation/partner nation counter-AQ efforts to 
divide AQ out as the real enemy. We also highlight host nation/partner 
nation efforts which address underlying conditions and contributors to 
extremism.
    Additionally, USSOCOM deploys Military Information Support Teams 
(MIST) in over 20 nations globally. MISTs work with U.S. Embassy 
Country Teams and Theater Special Operations Commands (TSOC) to counter 
violent extremist messaging, among other issues, using the full 
spectrum of inform and influence activities. Additionally, MISTs often 
address the upstream factors leading to violent extremism through 
partnership with our allies. Building partner capacity, persistent 
engagement, and working by, with, and through our allies is crucial in 
long-term success in countering AQ's narrative that the U.S. is at war 
with Islam.
    Complementary to the MISTs, USSOCOM continues to operate two 
enterprise capabilities which provide a globally synchronized and 
mutually supporting network: the Trans-Regional Web Initiative (TRWI) 
and the Trans-Regional Magazine Initiative (TRMI). These two MISO 
programs provide the GCC Commanders with the ability to conduct U.S. 
unilateral MISO supporting CT and GCC Theater Security Cooperation 
objectives.
    TRWI currently operates 10 Web sites across 6 geographic regions, 
providing a global network of influence Web sites. These Web sites 
publish factual content 6 days/week, 24 hours per day, in 23 languages. 
Such content undermines and indirectly counters the Al Qaeda narrative 
that the U.S. is at war with Islam, while maintaining a focus on the 
pragmatic aspects of regional and local economic and social 
improvements. TRWI Web sites also leverage various social media 
outlets, greatly expanding the reach and influence of the messaging.
    SOCOM's Trans-Regional Magazine Initiative (TRMI), is designed to 
develop, synchronize, and coordinate senior military-to-military 
information and influence message in support of SOCOM and GCC 
objectives. The program supports all six GCC contingency operations and 
theater security cooperation objectives through the publication of 
influence products that reach more than 90,000 senior military leaders 
and defense official in 12 languages across 171 countries worldwide. 
The magazines serve as a tool to not only counter AQ propaganda, but to 
promote stability and security and build support for U.S. Government 
activities. Through the use of these magazines, SOCOM achieved an 
economy of force solution for a small ``boot-print,'' high-yield 
engagement in the ongoing war of ideas.
    We are making progress as indicated by the House Appropriations 
Committee-Defense decision in FY13 appropriations to move TRWI funding 
from Overseas Contingency Operations (OCO) funding to USSOCOMs baseline 
budget. The MISO community has worked over recent years to better 
assess the effectiveness of influence operations. Per guidance in DOD 
Appropriations Acts 2010 and 2012, DOD reports quarterly to Congress of 
the effectiveness of MISO activities. While measuring behavioral change 
in humans is a complex effort, SOCOM has been working closely with the 
Joint Staff, the Joint Information Operations Warfare Center (JIOWC), 
and Office of the Under Secretary of Defense for Policy to continue to 
improve our efforts of assessment.
    MISO inherently includes an assessment phase as part of the 
influence process, and MIST teams incorporate polling, surveys and 
assessments in the execution of their operations to determine program 
effectiveness. Additionally, SOCOM's Global Assessment Program (GAP) 
explicitly measures the extent to which Al Qaeda's narrative resonates 
with populations of interest through the use of large-scale 
quantitative surveys as well as multiple qualitative focus groups. GAP 
has completed baseline assessments in Yemen, Algeria, Nigeria, 
Bangladesh, Kenya, and Maldives as well as follow-up studies in Yemen 
and Bangladesh. SOCOM uses these baseline assessments with 
reassessments to gauge the effectiveness of our efforts at a strategic 
level.
    TRWI Web sites have also provided us the ability to gauge our 
success in changing attitudes and perceptions. Using both quantitative 
methods (article reads and unique site visitors) along with qualitative 
methods (reader comments, online surveys and polls), we're able to 
measure performance and behavioral data on a daily, monthly and 
quarterly basis to determine messaging effectiveness. The sites content 
and performance data is shared with Department of State in order to 
compare behavioral changes with target audiences in each region.
    TRMI uses target audience member feedback to assess the level of 
influence in countering AQ. TRMI receives numerous submissions for 
publication of reader developed content, as well as requests to use the 
magazines in numerous training events and conferences. In addition, 
SOCOM completed a quantitative and qualitative assessment study in 2011 
which researchers used to compare the effectiveness of one magazine's 
impact on a control group across a 2-year exposure. Researchers found 
significant changes in attitude regarding reader support of their 
country's cooperation with the UN, EU, NATO, and UN Peacekeeping 
missions as a direct result of readership. These are all indicators of 
TRMIs credibility and effectiveness with the target audience.
    USSOCOM has sufficient authorities to counter the Al Qaeda and 
violent extremist narrative. However, compliance requirements are in 
some cases overly cumbersome and impact the responsiveness and 
flexibility necessary to gain the advantage and exploit the OPTEMPO of 
digital discourse.
    Reduced funding for MISO is also limiting our ability to counter 
the enemy's narrative. The recent defense strategy outlining the future 
move towards low-cost and small-footprint options for global, 
persistent engagement should include a reliance on MISO to accomplish 
U.S. DOD objectives. However, SOCOM MISO funding in the FY13 
appropriation remains largely in Overseas Contingency Operations (OCO) 
line. This funding strategy places at risk long-term sustainment for 
enduring MISO programs. Additionally, Resource Management Decision 
(RMD) 700a eliminated all funding for the Trans Regional Magazine 
Initiative, and imposed a 20% reduction on funding for the Trans 
Regional Web Initiative. At little cost, both programs have global 
reach, targeting large and diverse audiences, and require no U.S. 
presence on the ground.
    Since 2008, SOCOM has refocused the priority to the indirect 
approach and in the use of non-kinetic operations as critical to 
achieving long-term objectives. While the need for non-lethal influence 
operations has risen since this shift, budgets for MISO and influence 
operations have been decreasing. When compared to other DOD 
capabilities, MISO is a low-cost, small footprint, persistent Special 
Operations Forces (SOF) capability that when combined with other 
capabilities can achieve lasting effects.

    Ms. Shea-Porter. As it relates to the planned Air Mobility Command 
airlift force structure, what is your greatest concern in providing 
airlift capabilities to support the National Military Strategy and 
contingency operations to other combatant commanders? And, can you 
please highlight the potential impacts to organic fleet readiness and 
ability to respond to contingencies in light of a possible yearlong CR 
and sequestration?
    General Fraser. Our greatest concern in providing airlift 
capabilities remains retaining the ability to support combatant 
commanders with timely deliveries of their requirements at acceptable 
levels of risk as we go forward. Organic fleet readiness may be 
impacted by sequestration reductions in weapon system support accounts 
designed to ensure availability of those aircraft in the Active, guard, 
and Reserve force structure.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN

    Mr. Runyan. General Fraser, listening to your answer to the 
question from my colleague, Mr. Scott, regarding use of foreign 
carriers, I have some concerns.
    It is my understanding that TRANSCOM has contracted for at least 
$244M in 2012 for Russian AN-124 aircraft (as listed in the COINS 
system), albeit as subcontracts to CRAF carriers. Is that accurate?
    I also understand you use these aircraft for what is referred to as 
``outsize/oversize'' cargo that may not fit onto a CRAF carrier. 
However, I'm concerned you may not be maximizing the use of our own C-5 
fleet for outsize/oversize and then putting pallets and smaller 
equipment on CRAF carriers. Does that make sense?
    Can you explain what systems you have in place to ensure we're 
maximizing the use of C-5s for outsize/oversize, then putting pallets 
on our CRAF carriers?
    Further, I understand you may be flying CRAF carriers into Baku, 
Azerbaijan, instead of flying CRAF all the way into Afghanistan, even 
though CRAF is cleared to do so. Isn't it true that uploading CRAF 
cargo to these IL-76s costs 3x the price of CRAF carrier and supports a 
foreign carrier? Why would you do that? Do you feel you have the 
authority to make this decision to not use CRAF? Does that comply with 
the Fly CRAF Act?
    General Fraser. When organic capability is not available and 
commercial support is required, we utilize Civil Reserve Air Fleet 
(CRAF) carriers to the maximum extent possible. All DOD commercial 
missions are conducted in compliance with the Fly America and Fly CRAF 
Acts. For outsized, oversized, or battle-damaged cargo, occasional use 
of contract AN-124 and IL-76 aircraft is required to augment our C-5 
fleet. DOD assigns those missions to foreign carriers only when the 
missions cannot be performed by a U.S. commercial carrier. As a matter 
of policy, the contracts for these aircraft are through CRAF carriers 
who subsequently use foreign carrier subcontractors. Additionally, 
Section 801 of the National Defense Authorization Act (NDAA) for Fiscal 
Year 2010 (Public Law 111-84; 123 Stat. 2399), provides authority to 
acquire products and services (to include airlift services) produced in 
countries along a major route of supply to Afghanistan. This authority 
is used in the case of IL-76 aircraft flying from Baku, Azerbaijan. The 
business provided through these aircraft contributes to our continued 
access of Baku and the rest of Azerbaijan.
    Mr. Runyan. I understand that TRANSCOM can use multimodal contracts 
to accomplish door-to-door transportation solutions using all 
commercial assets. For example, cargo imported into Afghanistan is 
sealifted to the UAE and then transported by air to its final 
destination. Instead of using multimodal contracts, however, I 
understand TRANSCOM has been shipping cargo through the Northern 
Distribution Network which costs 2\1/2\ times more than if TRANSCOM 
shipped cargo through the Pakistani transportation network. Shipping 
cargo through the NDN also burns more fuel. The Army has said 
unexpectedly high transportation costs have partly caused its $5-7 
billion shortfall in the fiscal year 2013 budget. Since the UAE is the 
closest multimodal country to Afghanistan, why hasn't TRANSCOM 
considered shipping more military cargo on commercial carriers through 
these multimodal contracts? How does TRANSCOM plan its flight routes to 
most effectively transport cargo into and out of Afghanistan?
    In the coming months, which countries does TRANSCOM plan to 
transport cargo through on C-5s, C-17s, and C-130s? How does TRANSCOM 
decide whether to fly cargo on military aircraft or use commercial 
aircraft under existing multimodal contracts? Approximately how many 
hours does TRANSCOM waste flying military aircraft, when commercial 
aircraft could more quickly and efficiently fly cargo through the UAE?
    General Fraser. As the Distribution Process Owner, USTRANSOM, in 
concert with the DOD, interagency, and our partner nations, is 
responsible for setting the global logistics enterprise to ensure 
reliable and redundant lines of communication (LOCs) for strategic 
cargo and passenger transport in support of combatant commands 
worldwide. In our role as the supporting command to U.S. Central 
Command (USCENTCOM) for Operation ENDURING FREEDOM (OEF), we have 
deliberately established multiple routes and modes to deploy, sustain, 
and redeploy/retrograde U.S. and coalition partners (Lift & Sustain 
nations) to meet warfighter requirements, while ensuring system 
efficiencies to the maximum extent possible. Thus, as the 
transportation provider supporting USCENTCOM and its components, we 
continually assess and refine our enterprise processes to realize cost 
avoidances in our commitment to make the best use of taxpayer dollars. 
Most importantly, this must be accomplished while effectively enabling 
USCENTCOM operations by providing multiple lanes of transportation, 
ensuring our mission will not fail due to loss of one or more routes.
    Over the past year, approximately 75% of our Defense Transportation 
System cargo moving to and from Afghanistan in support of OEF has moved 
via our commercial partners in the Commercial Multimodal system (CMM). 
The other 25% moved through other routes that we've established over 
time and continue to modify, including organic/commercial air direct 
delivery and the Northern Distribution Network (NDN). Due to cost, 
USCENTCOM prefers ground routing over CMM or air direct. Of the ground 
LOCs supporting OEF, the Pakistan Ground LOC (PAKGLOC) is the least 
expensive. Use of the PAKGLOC at its fullest capacity has been 
interrupted by its recent closure and subsequent reopening. While 
technically reopened in July 2012, new cargo bookings were held pending 
intergovernmental negotiations on the specific Memorandum of 
Understanding and Terms of Reference. These were approved 31 Jul 12 and 
1 Nov 12 respectively. In the interim between the reopening in July 
2012 and the conclusion of negotiations in November 2012, cargo that 
had been stranded along the route and in the port was being cleared. We 
recently completed proofs of principle with new cargo bookings to 
ensure smooth cargo flow under the new procedures. Because the rates 
are preferable to other available routes, we expect the PAKGLOC to 
reach higher, sustainable volumes and become the primary logistic LOC 
supporting OEF by the summer of 2013.
    While the PAKGLOC was closed we relied heavily on our commercial 
partners and the CMM system, along with the NDN, to move cargo into 
theater. While USTRANSCOM is responsible for establishing and 
monitoring LOC capacity and capability to meet OEF delivery 
requirements, USCENTCOM, as the supported command, in coordination with 
force providers (services and other combatant commands), issues 
guidance to subordinate commands for LOC selection when moving cargo to 
and from Afghanistan, with the primary goal of effective operational 
execution. USCENTCOM's guidance to its subordinate commands for 
strategic movement includes directives on LOC selection and mode 
selection (i.e. air direct, CMM, NDN, etc.). Once the requirement is 
given to USTRANSCOM, we source and execute the specified transportation 
solution to meet these USCENTCOM requirements, while advising them on 
low-cost options for cargo delivery that will meet their operational 
needs if applicable.
    Organic and commercial air direct delivery to and from Afghanistan 
is another critical capability utilized by USTRANSCOM to meet OEF 
warfighter requirements. Validated USCENTCOM strategic airlift 
requirements are allocated to either organic or commercial airlift by 
USTRANSCOM's air component, Air Mobility Command (AMC). Our organic 
strategic airlift aircraft (C-5 & C-17 assets) are national assets, 
which are low-density platforms in continuous high-demand throughout 
the globe. These aircraft are typically utilized to fly equipment that 
USCENTCOM deems critical and/or sensitive, in addition to other 
critical requirements that cannot be met by our commercial partners 
(i.e. helicopters, secure communications equipment, etc). Thus, if AMC 
does not have organic assets available for lift upon receipt of a 
validated USCENTCOM requirement, our commercial partners are contracted 
through USTRANSCOM to fulfill the airlift requirement appropriately. C-
130s are not utilized for strategic airlift due to capacity, velocity 
and intratheater demand.
    For organic assets, the missions are sourced, planned, and executed 
by AMC to meet USCENTCOM directed delivery timelines. Utilizing 
industry-standard flight planning software that accounts for aircraft 
specifications, fuel burn, winds aloft, etc., AMC plans the mission for 
the most efficient route possible, while also accounting for aircrew 
duty-day limitations, diplomatic overflight clearance and international 
flow-control restrictions. For OEF support, these routes can be 
accomplished with either air refueling tanker support to fly cargo non-
stop to/from continental U.S. (CONUS) and Afghanistan (most expensive 
option), or the more typical method of stopping at enroute locations in 
Europe. International routes for these missions change daily based on a 
number of other factors, but typically involve European overflight 
followed by a southern arrival (via Turkey, Iraq, Kuwait, and Pakistan) 
or northern arrival (via Turkey and Central Asian States) into 
Afghanistan proper. Nations overflown by our organic assets each have 
their own diplomatic clearance procedures--some have standing 
agreements with the DOD for overflight in support of OEF, while others 
require specific clearances for individual missions. On rare occasions, 
our organic airlift assets will be used to deploy and/or redeploy units 
from bases in the western U.S. Pacific Command (USPACOM) theater, which 
will move direct from the USPACOM region to Afghanistan (i.e. not 
routed east over the CONUS and Europe). AMC synchronizes and manages 
these overflight requirements to ensure disciplined global aircraft 
movement.
    With the requirement to use strategic organic airlift assets to 
move specific, USCENTCOM-validated critical cargo, USTRANSCOM and AMC 
continually assess aircraft utilization while meeting combatant 
commanders' requirements. These efforts at efficiency consistently 
result in over 80% cargo-fill utilization for our aircraft departing 
Afghanistan (including unit redeployment, retrograde and intratheater 
missions). This includes missions that depart Afghanistan with 
suboptimal cargo loads due to operational requirements such as 
intratheater repositioning, destination cargo handling capabilities, 
operational retasking, etc. When these missions, as well as those with 
physical cargo restraints (i.e. helicopters), are factored out of the 
assessment, we consistently realize over 95% cargo utilization for 
organic cargo missions moving OEF cargo. As the weight of airlift 
effort shifts to a primarily redeploy/retrograde mission for OEF 
drawdown, we anticipate that cargo utilization will decrease on 
missions entering Afghanistan, but increase to nearly 100% as aircraft 
are used to bring equipment and troops out of theater. These missions 
will be used to support movement of critical items that are ineligible 
for commercial ground or air lift. The vast majority of cargo is 
eligible for commercial ground or air lift and will therefore be moved 
via surface or multimodal options.
    Our commercial partners and the capabilities they provide via the 
CMM system are absolutely critical in our efforts to support the OEF 
warfighter. They have moved thousands of tons of vital deployment, 
sustainment, and retrograde/redeploy cargo by providing door to door 
logistics solutions for the warfighter. Thus, they are and will be 
critical partners to successfully fulfill continuing USCENTCOM 
requirements for a successful OEF drawdown. When the PAKGLOC capacity 
increases to its full utilization, we anticipate a majority of cargo 
will move via this route as lift costs continue to stress service 
budgets. However, we also predict that successful OEF drawdown will 
require utilization of the CMM system at levels the enterprise has not 
experienced thus far, which will require concerted effort from our 
commercial partners to meet substantial lift requirements forecasted by 
USCENTCOM. USTRANSCOM will continue to coordinate with USCENTCOM to 
ensure global surface, air, and multimodal capacity exists to meet 
operational requirements, while working with our commercial partners to 
ensure they remain fully informed on planned global lift requirements 
for their use in business modeling and commercial enterprise sizing.
    Mr. Runyan. General Fraser, how do you use this Approved Air 
Carrier list? How can TRANSCOM ignore stated policy--from a Department 
of Defense Instruction and United States Code--to assign missions that 
transport military cargo to non-CRAF carriers?
    General Fraser. The process outlined in the Military Freight 
Traffic Unified Rules Publication-1 (MFTURP-1) is used to determine 
which transportation service providers are certified. The MFTURP-1 
governs the validation process by which transportation service 
providers become DOD-approved air carriers listed in the Global Freight 
Management (GFM) system. Transportation officers use the GFM system to 
choose the transportation service providers for their domestic tender 
requirements. Business conducted through the GFM system is not subject 
to the requirements of the Fly America and Fly CRAF acts. Therefore, 
customers are able to utilize the additional non-CRAF transportation 
service providers for air delivery services.
    Air Mobility Command manages the movement of DOD airlift missions 
using a combination of organic and commercial airlift. Commercial 
airlift missions are acquired through Federal Acquisition Regulation 
based contracts.
    Mr. Runyan. Air Mobility Command maintains a list of about 136 
companies that are approved to transport military cargo. However, only 
about 30 companies on this list are CRAF participants; the rest are 
freight forwarders and non-CRAF carriers. Despite stated and well-known 
policies and regulations to use CRAF carriers, TRANSCOM has repeatedly 
allowed DOD to contract with these other companies
    Please explain the list of Approved Air Carriers. Who specifically 
are these companies? How do they get on this list?
    General Fraser. The referenced list, Approved Air Carriers, is 
comprised of transportation service providers which provide 
transportation partly or wholly via air. Air tenders and Air 
Transportation Service Provider Rules (Section F of the Military 
Freight Traffic Unified Rules Publication-1 (MFTURP-1)) are managed by 
AMC. Companies apply for ``DOD-Approved Status'' through a process 
outlined in the MFTURP-1. As long as companies meet the requirements of 
the MFTURP-1, air transportation providers may include air freight 
forwarders and air taxis as well as conventional air freight carriers 
operating under Federal Aviation Administration rules. Once approved, 
these domestic air carriers are given access to the Global Freight 
Management system where they can submit tenders (rates) based on their 
approved service category (air carrier, motor carrier, rail, etc).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. I know there is talk that the (ANP) Afghan National 
Police and the (ANA) Afghan National Army are going to be capable of 
maintaining stability in the Area of Operation (AO). How real is this?
    General Mattis. Despite the nature of the resilient insurgency in 
Afghanistan, the Afghan National Security Forces (ANSF), with limited 
support from International Security Assistance Force (ISAF), continues 
to improve across all levels. The ANSF capability to maintain stability 
in the area of operations is real. Successful operations like KALAK 
KHODE, a large-scale ANSF-led series of operations in Regional Command 
South, are just one example of how the ANSF continues to make 
demonstrable progress each day at the brigade, corps, and institutional 
levels. Since July 2012, the ANSF has not only grown in size, but has 
developed in capabilities and performance as well. Afghan security 
forces are now leading 80 percent of all conventional and special 
operations and, with the implementation of Tranche 4 in March 2013, the 
ANSF will have security lead for approximately 87 percent of the 
population. I am confident the ANSF is poised to assume the lead for 
all security operations this spring commensurate with Milestone 2013 as 
ISAF shifts to a supporting role. ISAF expects that Tranche 5 will be 
announced concurrent with Milestone 2013. With the implementation of 
this final Tranche this summer, the ANSF will have the lead for 
security for 100 percent of the Afghan population.
    Mr. Palazzo. The constant has been U.S. support for Afghan force in 
contact, the variables are what I believe need to be addressed. One has 
always been the duration that support would last, and the second is the 
Taliban. In your opinion, is it a likely possibility that the forces 
will regress once there is a total U.S. withdrawal?
    General Mattis. No. The Afghan National Security Force (ANSF) 
operational effectiveness continues a general upward trend as they 
continue to improve and professionalize. The Afghan Army is performing 
well, they have fought hard and held their own. Currently, over 87% of 
the Afghan population is under Afghan control and Afghan security. The 
ANSF remains on track to support transition allowing them to take the 
lead for security across Afghanistan by the first half of 2013, and 
have responsibility for all security by the end of December 2014, per 
the Lisbon Agreement.
    Mr. Palazzo. Syria and Lebanon have always been in the mix, so to 
speak. There are small factions of Al Qaeda extremists, but for the 
most part they have been of little concern with respect to the other 
two larger threats. Is there more concern that one of these two 
countries will try to follow Iran's current nuclear push?
    General Mattis. With Syria currently embroiled in a full-scale 
civil war, the regime is focused entirely on its survival and defeating 
the insurgency. Syria is a signatory to the treaty on Non-proliferation 
of Nuclear Weapons and has a declared civilian nuclear research 
program, and there are no indications the regime is pursuing a nuclear 
program along the lines of the current Iranian ``push.'' As Syrian 
state infrastructure and regime control continues to erode in the civil 
war, development of a nuclear program inside Syria becomes increasingly 
unlikely.
    Neither the Government of Lebanon nor any entity within Lebanon 
(i.e., Lebanese Hizballah) has the capability or willingness to develop 
a nuclear weapons program. Lebanon struggles with its own internal 
stability issues, now exacerbated by sectarian spillover from the 
Syrian civil war, making nuclear development an implausible scenario.
    Mr. Palazzo. What is the U.S. stance with the actions of Israel? I 
know we have long since been allies with this very powerful military 
presence in the region. They are aggressively advocating against the 
Iranian push to nuclear power. If they were to act on the threat on 
their own, will our stance be to still support such actions? With that 
being said, and the looking to follow through with the ``Shift to the 
Pacific,'' will we have enough of a force to redeploy to this area of 
operations?
    General Mattis. For the first part of this question, ``What is the 
U.S. stance with the actions of Israel'' I would defer to the European 
Combatant Commander and to the State Department. As for CENTCOM's 
ability to defend our interests and partners in the Arabian Gulf, 
CENTCOM is working closely with the Joint Staff and the Services to 
ensure we retain the necessary capabilities to carry out our 
responsibilities as directed by the President.

    Mr. Palazzo. With the sequester under way, what in your mind is the 
order of priority as far as cuts go and what drives that decision? Is 
it current operations or a projection of where the SOF needs to be?
    Admiral McRaven. USSOCOM will achieve all FY13 sequester reductions 
by reducing the period of performance on several contracts. This was 
the only way to achieve the savings with only 6 months remaining in the 
fiscal year without impacting current capability. The Department has 
not issued guidance on the sequester implementation for fiscal year 
2014 and beyond so we have not been able to fully assess what 
capabilities will be impacted. When we do know the impact of sequester 
we will strike a balance: we must protect readiness for the operators 
in the fight while we consider our future capabilities.
    Lastly, but just as important, USSOCOM receives critical support 
from the Services and we are already feeling the impact of sequester 
with the reduction in flying hours, ISR and CJCS exercises. This will 
negatively impact global operations and SOF efforts to build 
partnership capacity and current counter terrorism operations.
    Mr. Palazzo. A particular interest to me and my district is the 
proposed procurement of a piece of real estate in South Mississippi to 
facilitate the training of our elite Navy SEALs and (SBU) Small Boat 
Units.
    a. Do these efforts come to a standstill?
    b. What do you need to ensure that your forces have the best 
training facilities available to them?
    c. How do we expedite this process?
    Admiral McRaven. The query about ``procurement of a piece of real 
estate in South Mississippi to facilitate the training of our elite 
Navy SEALs and (SBU) Small Boat Units'' is referring to the planned 
land acquisition adjacent to NASA's Stennis Space Center (SSC) to 
support the Navy Special Operations Forces (SOF) Jungle and Riverine 
Training Western Maneuver Area (WMA). The WMA land acquisition of 5,200 
acres is scheduled to be completed in three phases. Phase One has been 
completed with Phase Two and Three programmed for FY15.
    a. The WMA land acquisition is on track as planned. Environmental 
compliance was covered in a Record of Decision signed by Mr. Wayne 
Arny, Deputy Assistant Secretary of the Navy (DASN) for Installations 
and Facilities, on October 6, 2004. A property value assessment is 
underway as required within one year of acquisition. Currently, Phase 
Two and Three remain on track and approved for FY15 in our FY2014 
Future Years Defense Plan (FYDP).
    b. U.S. Special Operations Command has projects planned to ensure 
our forces training at SSC have the best training facilities available. 
Among the projects is a Naval Small Craft Instruction and Technical 
Training School (NAVSCIATTS) Applied Instructor Facility to be 
constructed in 2015 per the FY2014 FYDP.
    While there are training improvements in the works, Naval Special 
Warfare Command is investing in an assessment of NSW ranges, training 
and support facility shortfalls at SSC and developing a detailed 
Military Construction (MILCON) and Operations and Maintenance (O&M) 
investment strategy to mitigate identified gaps. Provided funding is 
available under sequestration, this assessment will be complete by the 
end of CY2013 to help guide the efficient programming of future year 
resources to ensure our forces training at SSC have the best training 
facilities available.
    c. U.S. Special Operations Command has a structured Strategic 
Planning Process that guides the programming and expenditure of 
resources to efficiently support the entire Special Operations 
enterprise. Expediting the process is not warranted, provided U.S. 
Special Operations Command is fully resourced to execute its deliberate 
development plans.

    Mr. Palazzo. How is the Air Force prioritizing the airlift 
capabilities under the constraints of a limited budget. With the Asia-
Pacific shift will we have the lift capabilities here at home for 
things such as rapid deployment of National Guard and Reserve assets 
should they be needed?
    General Fraser. Airlift capabilities are prioritized under the 
strategic guidance provided by our National Defense Strategy. As 
illustrated in the Mobility Capability Requirements Study-2016 and the 
more recent Mobility Capabilities Assessment-2018, our anticipated 
airlift capabilities are adequate to satisfy all national strategy 
requirements, including the Asia-Pacific shift, as well as domestic 
deployment requirements.
    Mr. Palazzo. There has been a lot of talk about moving planes from 
base to base over the past year under the different changes to the 
total force proposal; in some cases there have been exhaustive 
arguments made to discredit the moves or argue for why certain planes 
should stay at certain bases. I know you have looked at all of those 
and weighed those options.
    How much of a factor did cost play in that analysis?
    In some cases we are talking about new construction, moving 
simulators and other major components that is bound to cost millions 
upon millions of dollars.
    In our current sequestration environment do you believe that we can 
afford to move planes and crews that are accomplishing everything that 
we ask of them, without cost saving being a top factor?
    Under a sequester and with the possibility of another yearlong 
continuing resolution is the Air Force still planning on following 
through with the FY14 shift of airlift capabilities?
    General Fraser. Due to the fiscal constraints mentioned, Air 
Mobility Command, as the air component to USTRANSCOM, was forced to 
make tough decisions to retire or divest mobility force structure as 
part of their initial FY13 Program Objective Memorandum submission to 
HQ U.S. Air Force. While I am not involved in the Air Force basing 
decisions or budgeting decisions to support aircraft force structure, I 
have previewed the results of the FY13 NDAA and determined that airlift 
force structure is sufficient to meet Defense Strategy requirements.
    The current fiscal environment and looming additional fiscal 
pressure will impact future budget decisions. While the Air Force has 
agreed to extend the C-130 floor through FY14, any necessary future 
intratheater airlift force structure actions for FY15 and beyond will 
be announced in conjunction with the FY15 PB.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE

    Mr. Bridenstine. I am concerned about Al Qaeda in the Arabian 
Peninsula (AQAP) activities in Yemen. I believe we must have a 
comprehensive strategy in Yemen and that we cannot simply kill our way 
to success. Do we have a strategy for Yemen that leverages your 
interagency partners?
    General Mattis. Yes. The CENTCOM strategy in conjunction with other 
U.S. Government (USG) agencies is to conduct regional operations, 
activities, and actions to achieve regional stability. The success of 
this plan depends on our ability to integrate military planning efforts 
with those of the broader federal interagency (IA). Essential tasks 
inherent to the Yemen Country Plan have been developed in consultation 
and coordination with the Interagency Action Group (IAG) liaison 
officers (LNO) representing their respective Federal agencies. These 
LNOs are assigned or detailed to CENTCOM and serve as the conduit for 
continued collaboration and coordinated planning between CENTCOM and 
the IA community.
    Mr. Bridenstine. From my understanding, the Department of Defense 
supports retaining the Pakistan Counterinsurgency Fund (PCF) authority 
and other military aid programs to Pakistan. It is also my 
understanding that PCF depends on the Government of Pakistan allowing 
U.S. trainers in the country. Can you provide an update on the Pakistan 
Counterinsurgency Fund (PCF) and other military aid programs to 
Pakistan?
    General Mattis. The PCF and PCCF authorities have been essential in 
improving Pakistan's Counter Terrorism (CT) and Counter Insurgency 
(COIN) operations against militant groups. PCF and PCCF are the primary 
funding sources for the development and modernization of Pakistan's 
combat forces deployed in the Federally Administered Tribal Areas 
(FATA) and Khyber Pakhtunkhwa. These units help advance U.S. interests 
in Afghanistan and the region by attacking violent extremists and 
limiting cross-border attacks. The acquisition of items such as night-
vision devices, radios, and medical equipment has made Pakistan 
military operations more effective in targeting these violent 
extremists. PCF/PCCF-funded counterinsurgency training has prepared the 
Pakistan military and Frontier Scouts for the fight against insurgents 
by providing courses in small-unit tactics, intelligence analysis, and 
law of armed conflict. As more of the PCF/PCCF-funded major end items 
are delivered to Pakistan, Pakistan's military will gain improved 
capabilities to conduct close air support, night operations, and 
organic intelligence-surveillance-reconnaissance operations. Moving 
forward, our PCF/PCCF-funded efforts to build Pakistan's CT and COIN 
capabilities do not depend on Pakistan permitting U.S. trainers in 
country.
    Mr. Bridenstine. While much of our attention focuses on Afghanistan 
and Iran, we cannot forget our continuing commitments in Iraq, 
particularly our military personnel at the Office of Security 
Cooperation-Iraq (OSC-I). What is the future of OSC-I? Does OSC-I have 
the authorities it needs for ``train and assist'' missions?
    General Mattis. OSC-I currently maintains necessary ``train and 
advise'' authorities, but there is a concern that those authorities 
will lapse in the next fiscal year. The authorities have allowed OSC-I 
to provide the training and advice needed to advance U.S. interests 
such as developing the Iraqi counterterrorism forces. We remain mindful 
of our enduring commitments in Iraq. OSC-I is an integral component of 
the U.S. Mission in Iraq and will continue to advance U.S. interests 
for the foreseeable future. OSC-I's Security Assistance and Security 
Cooperation activities increase U.S. leverage and access within the 
nascent Iraqi government. In the near term, OSC-I is transitioning to a 
model that will be uniform to other U.S. Embassies in the Middle East. 
We are seeking an extension to the FY13 authorities through FY14 in 
order to complete the train and advise functions.

    Mr. Bridenstine. While direct-action missions--such as the Bin 
Laden raid--often get the headlines, we cannot lose our capability to 
conduct ``indirect'' Special Operations Forces (SOF) missions. How are 
you rebalancing your forces to execute these core SOF activities? Are 
there any core SOF activities that could be turned over to Conventional 
Forces?
    Admiral McRaven. SOF direct action missions do garner the majority 
of the headlines, despite the fact that the majority of SOF efforts 
fall into the category of ``indirect'' or nonkinetic missions. Over the 
past decade, the priority for our country (and thus SOF) shifted to 
Southwest Asia. This focus on Iraq and Afghanistan resulted in a 
conscious decision to accept risk in other Geographic Combatant 
Commanders' (GCCs') Areas of Responsibility (AORs) by retasking 
previously regionally aligned SOF units to rotations in Iraq and 
Afghanistan. Simultaneously during this period, GCC requirements for 
SOF have actually increased. With drawdowns in Iraq and Afghanistan, 
SOF will be able to meet some of the GCCs' demand for SOF which has 
been suppressed for a decade. USSOCOM's deliberate and rigorous 
analysis over the past year has identified this demand, and we are 
developing a plan with our GCC and Service partners to resource the 
demand to the best of our ability, taking into account that the demand 
exceeds the supply. This effort, combined with reinvigorated education 
and training programs, comprises the core of our ``rebalance'' 
initiatives.
    With regard to conventional forces, their assistance is absolutely 
essential for SOF to conduct our core activities. However, SOF should 
not divest itself of any of its core missions at this time. SOF units 
and operators are unique in many aspects. Size of the unit, rank 
structure, and training are some of the primary elements which 
differentiate SOF from conventional forces. The required level of 
training and maturity allows SOF to deploy to locations where large 
conventional units cannot be supported by the host nation, and they 
interact with both senior-level U.S. and foreign officials as part of 
their daily missions. SOF are uniquely suited to operate in austere 
and/or ambiguous environments. In short, they achieve strategic results 
with tactical operations. But it is important to reiterate that 
conventional forces' high-demand/low-density skills and resources, such 
as aviation, logistics, and intelligence greatly improve SOF's 
capabilities with only a limited footprint.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
